<html>
<title> - CURBSIDE OPERATORS: BUS SAFETY AND ADA REGULATORY COMPLIANCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
      CURBSIDE OPERATORS: BUS SAFETY AND ADA REGULATORY COMPLIANCE

=======================================================================

                                (109-52)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    HIGHWAYS, TRANSIT AND PIPELINES

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
30-298                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

?

            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                  THOMAS E. PETRI, Wisconsin, Chairman

SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         NICK J. RAHALL II, West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JERROLD NADLER, New York
JOHN L. MICA, Florida                GENE TAYLOR, Mississippi
PETER HOEKSTRA, Michigan             JUANITA MILLENDER-McDONALD, 
SPENCER BACHUS, Alabama              California
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
SUE W. KELLY, New York               EARL BLUMENAUER, Oregon
RICHARD H. BAKER, Louisiana          ELLEN O. TAUSCHER, California
ROBERT W. NEY, Ohio                  BILL PASCRELL, JR., New Jersey
FRANK A. LoBIONDO, New Jersey        TIM HOLDEN, Pennsylvania
JERRY MORAN, Kansas                  BRIAN BAIRD, Washington
GARY G. MILLER, California           SHELLEY BERKLEY, Nevada
ROBIN HAYES, North Carolina          JIM MATHESON, Utah
ROB SIMMONS, Connecticut             MICHAEL M. HONDA, California
HENRY E. BROWN, Jr., South Carolina  RICK LARSEN, Washington
TIMOTHY V. JOHNSON, Illinois         MICHAEL E. CAPUANO, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    ANTHONY D. WEINER, New York
SAM GRAVES, Missouri                 JULIA CARSON, Indiana
MARK R. KENNEDY, Minnesota           TIMOTHY H. BISHOP, New York
BILL SHUSTER, Pennsylvania           MICHAEL H. MICHAUD, Maine
JOHN BOOZMAN, Arkansas               LINCOLN DAVIS, Tennessee
MARIO DIAZ-BALART, Florida           BEN CHANDLER, Kentucky
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
TOM OSBORNE, Nebraska                RUSS CARNAHAN, Missouri
KENNY MARCHANT, Texas                ALLYSON Y. SCHWARTZ, Pennsylvania
MICHAEL E. SODREL, Indiana           JAMES L. OBERSTAR, Minnesota
DAVID G. REICHERT, Washington          (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Gillan, Jacqueline S., Vice President, Advocates for Highway and 
  Auto Safety....................................................    23
 Golden, Marilyn, Policy Analyst, Disability Rights Education and 
  Defense Fund...................................................    23
 Hamilton, Bruce, President/Business Agent, Amalgamated Transit 
  Union Local 1700, AFL-CIO......................................    23
 Liang, Pei Lin, President, Fung Wah Bus Transportation, Inc.....    30
 Pantuso, Peter J., President and CEO, American Bus Association..    23
 Sandberg, Annette, Administrator, Federal Motor Carrier Safety 
  Administration.................................................     4
 Wang, David, Co-Owner and Manager, Eastern Travel, Inc..........    30

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    37
Cummings, Hon. Elijah E., of Maryland............................    38
Porter, Hon. Jon, of Nevada......................................    00

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Gillan, Jacqueline S............................................    44
 Golden, Marilyn.................................................    57
 Hamilton, Bruce.................................................    66
 Liang, Pei Lin..................................................    79
 Pantuso, Peter J................................................    80
 Sandberg, Annette...............................................   165
 Wang, David.....................................................   171


      CURBSIDE OPERATORS: BUS SAFETY AND ADA REGULATORY COMPLIANCE

                              ----------                              


                        Thursday, March 2, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Highways, Transit and Pipelines, Washington, 
            D.C.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, Hon. Thomas E. Petri 
[chairman of the committee] presiding.
    Mr. Petri. The Subcommittee will come to order.
    I would like to welcome all of our members and witnesses to 
today's hearing on Curbside Operators: Bus Safety and ADA 
Regulatory Compliance. The purpose of today's hearing is to 
learn more about the curbside operator industry and determine 
if there are safety violations and Americans With Disabilities 
Act, or ADA violations. If there are, we want to hear about the 
extent of those violations and what can be done to bring these 
carriers into compliance with the law.
    Recently, there has been a lot of attention in the media 
about curbside operators and whether they comply with Federal 
law and regulations. For those who are not familiar with 
curbside operators, they are full fare interstate buses that 
pick up and drop off passengers on the street, rather than 
traditional bus terminals. They are also referred to as 
Chinatown buses, because they originally served the northeast 
Asian communities by transporting restaurant workers from one 
Chinatown to another city's Chinatown.
    Curbside operators now have expanded beyond their original 
routes and passenger and service the entire Eastern Seaboard 
from Boston to Albany to Philadelphia to Richmond, Virginia. 
They have also expanded their passenger base to include 
professionals, students and tourists. Something that was 
familiar to me as a Peace Corps volunteer over in Somalia, 
where there were bus or other transportation operations at a 
certain point, and whenever enough people lined up to fill up 
the bus, they would take off. But this is not the typical 
American approach.
    In recent media reports, passengers of curbside operators 
have questioned whether these buses are safe to transport 
people. Bus fires along the interstates and horror stories of 
buses breaking down on the side of the road, leaving passengers 
stranded for hours, are rampant in the news and among the 
traveling public. Passengers and other interstate users have 
asked the Government to ensure that these buses are safe. 
Unfortunately, they have not been given a straight answer as to 
whether they are safe and comply with the law.
    However, these curbside operators have peaked the 
Government's interest enough to warrant a week-long safety 
inspection crackdown in the northeast. In late October, 
Federal, Sate and local authorities teamed up to inspect buses 
in Massachusetts, Connecticut, New York, Pennsylvania and 
Maryland. The Northeast Passenger Carrier Strike Force, as it 
became known, performed over 400 safety inspections on buses 
and uncovered over 500 safety related violations. As a result, 
56 buses and 13 drivers were placed out of service.
    The Federal Motor Carrier Safety Administration followed up 
on the inspection sweep in December by performing compliance 
reviews on 14 curbside operators. The Federal inspectors found 
that 176 safety related violations and 11 of these 14 carriers 
had violated the ADA.
    Besides questioning the safety of this industry, the media 
has reported blatant non-compliance with the ADA. In the winter 
of 2004, a Boston couple attempted to board a curbside operator 
with their seeing-eye dog, only to be turned away due to their 
no animal policy. But when they agreed to leave the dog at 
home, they were turned away anyway. The operator refused the 
sale a second time because it claimed they could not take 
responsibility for transporting a visually disabled person 
without any visual aids like a seeing-eye dog.
    The Attorney General of Massachusetts investigated the 
situation and found sufficient evidence to file suit against 
this curbside operator, claiming the company intentionally 
ignored the State's disability access law.
    Today we have three panels of witnesses. The first panel is 
the Administrator from the agency that regulates interstate 
buses, the Federal Motor Carrier Safety Administration, or 
FMCSA. On our second panel, we have representatives from groups 
who have an interest in interstate bus activity. And finally, 
we will hear from three operators whose operations seem to be 
representative of the issues we are examining today.
    We look forward to hearing the testimony from all of our 
witnesses. Now I will yield to Mr. DeFazio for any opening 
statement that he may wish to make.
    Mr. DeFazio. Thank you, Mr. Chairman. Thank you for calling 
this hearing.
    I think it is very good that the Committee is exerting some 
oversight over this subset of the industry and over how it is 
being regulated and overseen by the Administration. First, 
Administrator Sandberg, I understand this is your last week. 
Thank you for your service.
    We are concerned, at least Ranking Member Oberstar and I, 
that as far as I know, there is still not a nominated 
successor. That is an ongoing concern. Hopefully if any of the 
minders, the political minders down there at DOT are listening 
in, they will remind the Secretary that it would be, we think, 
imperative that a permanent replacement soon be nominated.
    I appreciate the fact that you did undertake last, I guess 
it was last summer, the Northeast Passenger Carrier Strike 
Force investigation. I think the results of that are quite 
startling and I would only reflect, I am new in this position 
on this subcommittee. But I have more expertise in aviation. If 
we had had a sudden inspection over and above our regular 
regulatory regime which uncovered anywhere near those numbers 
of violations in serious ways, it would be reverberating still 
throughout the industry and the press.
    Just because we are dealing with people of lower incomes 
and in a less high profile industry does not mean that we 
should allow, with our regulatory role over interstate 
commerce, these sorts of problems to continue to not be 
addressed. Our staff has reviewed from the SAFESTAT program 
your scoring. They found that 6 of the 25 major curbside folks 
had problems and very poor scores, but only 3 were marked for 
review. We would be very curious why the other three were not 
and why we are not seeing more robust, ongoing monitoring. 
Perhaps it reflects problems that are even bigger than curbside 
buses that go to other areas of jurisdiction under your 
department.
    I think the Congress certainly has expressed its concern in 
this area by the very robust increase in funding that we put 
into the SAFETEA-LU bill. It is actually almost a 20 percent 
increase over the last five years. So I think that you have 
there certainly a vision and a strong indication by Congress 
that we would like more ongoing inspections and scrutiny of all 
aspects that fall under your division. Because it is not just 
the people who are either on the buses or driving the trucks 
who are at risk, but also the rest of the traveling public who 
is being put at risk, should there be a major accident 
involving defective vehicles or drivers who are not fully in 
compliance with all the regulations for their license.
    With that, I look forward to your testimony. Again, I thank 
the Chairman. I think hopefully we are getting ahead of the 
problem here. We are not going to have a tombstone mentality. 
And we are going to prevent some tragedy from happening.
    Mr. Petri. Are there any other opening statements? Mr. 
Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman, Ranking Member, for 
bringing us together today on a discussion of our Nation's most 
traveled transport system. According to the American Bus 
Association, private buses transport almost three-quarters of a 
billion passengers a year. That is more than Amtrak and all the 
airlines put together.
    Overall, it is the safest mode of travel on our Nation's 
highways and currently the most affordable. However, I am 
deeply troubled by some recent reports of safety violations by 
some of the carriers. Low cost transportation options should be 
available to consumers all along the corridor, but even if the 
dollar amount is small, the actual price is safety. It is far 
too high a cost.
    I am concerned also to learn that some companies may be 
denying disabled persons travel on their bus lines. In fact, 
there is an article in the Washington Post today, very 
troubling. Non-compliance with the Americans With Disabilities 
Act is a serious infraction and a violation of American civil 
rights. I am hopeful that the Subcommittee will gain a more 
complete understanding of the situation here today and look 
forward to working with all the parties to ensure the safety 
and security of all private bus line passengers.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Any other opening statements? If not, we will begin with 
the first panel, Annette Sandberg, Administrator of the Federal 
Motor Carrier Safety Administration, United States Department 
of Transportation.
    Welcome. You know the drill and we look forward to your 
summary statement.

  TESTIMONY OF ANNETTE SANDBERG, ADMINISTRATOR, FEDERAL MOTOR 
                 CARRIER SAFETY ADMINISTRATION

    Ms. Sandberg. Thank you, Mr. Chairman, Ranking Member 
DeFazio and members of the Subcommittee. Thank you for inviting 
me to discuss the Federal Motor Carrier Safety Administration's 
oversight role of curbside bus operations.
    Motorcoaches are one of the safest forms of commercial 
transportation. According to our licensing and insurance data 
base, approximately 3,900 interstate motorcoach companies 
operate 35,000 motorcoaches in the United States. There are 
approximately 120,000 motorcoach drivers who have commercial 
drivers licenses with passenger endorsements.
    For the previous ten calendar years, there has been a 
yearly average of 22.4 motorcoach occupant fatalities. The 
Federal Motor Carrier Safety Administration has established a 
National Motor Coach Safety program with emphasis on six areas. 
One, increase the number of motorcoach compliance reviews, 
which are the investigation of a company's safety practices. 
Two, develop and implement a separate CR prioritization system 
for motorcoach carriers. Three, establish formal motorcoach 
inspection programs within all the States. Four, improve safety 
data. Five, reduce motorcoach fires. And six, expedite safety 
audits of new motorcoach carriers.
    I would like to quickly outline each of these areas. One, 
motorcoach company compliance reviews. Our agency has planned 
an increase in the number of compliance reviews conducted on 
motorcoach companies. In fiscal year 2005, FMCSA and our State 
partners conducted 457 motorcoach compliance reviews, 
surpassing our established goal of 375. Our fiscal year 2006 
goal is 450, a 20 percent increase over our previous year's 
goal. And we anticipate that we will surpass that goal as we 
did in 2005.
    Two, passenger carrier compliance review prioritization 
system. Our agency chose to develop a separate system for 
prioritizing motorcoach carriers for two reasons. One, the 
availability of motorcoach safety data is more limited than 
that of property carriers because of infrequent roadside safety 
inspections and fewer compliance reviews. And two, the belief 
that motorcoach companies should receive more program attention 
and enforcement resources.
    This approach aligns our selection criteria with the 
National Transportation Safety Board recommendation that we 
revise the SAFESTAT system to compare passenger carriers with 
one another. FMCSA will implement the passenger carrier CR 
prioritization system during this calendar year.
    Three, motorcoach inspections. While all States conduct 
motorcoach inspections, not every State has a formal motorcoach 
inspection program. By way of memorandum, our agency will 
require State agencies that receive MCSAP grant funds to revise 
their commercial vehicle safety plans to include a bus 
inspection program. FMCSA will conduct a meeting with our MCSAP 
partners in early May to discuss this issue.
    Four, improved safety data. Safety data are important to 
our agency to employ our resources effectively and efficiently. 
In the past three years, there have been significant 
improvements in the timeliness and quality of our motorcoach 
safety data, largely through a series of recent inspection and 
compliance review strike forces. Having accurate and complete 
data about the bus companies we regulate is vital for our 
safety mission. Additionally, we are conducting a bus crash 
causation study mandated by the Motor Carrier Safety 
Improvement Act (MCSIA) to determine the reasons for and 
factors contributing to serious bus crashes.
    Five, motorcoach fires. Another important aspect of our 
safety program relates to the problem of motorcoach fires. 
Presently, our agency is taking action to address bus fires. To 
this end, we have approached the National Highway Traffic 
Safety Administration (NHTSA) about a coordinated data sharing 
program between our two agencies to more quickly identify and 
correct vehicle safety problems. We are working together with 
NHTSA to identify the causes of these fires, and once they are 
identified, our agencies will take appropriate action.
    Six, new entrant passenger carriers. Of the 40,000 to 
50,000 new carriers that enter interstate commerce each year, 
several hundred of these are new entrant passenger carriers. We 
have implemented a new policy that makes passenger carriers a 
greater safety priority. New entrant passenger carriers are now 
subject to an on-site safety audit within nine months of 
beginning operations, instead of the usual 18 months for other 
coach carriers.
    Finally, we are working on a proposed rule to strengthen 
new entrant program standards across the bus and truck 
industries. In September of 1998, the Department of 
Transportation amended its ADA regulations to require 
accessible over-the-road bus service. The regulations ensure 
accessible, timely over-the-road bus service for passengers 
with disabilities, including wheelchair users. These 
regulations apply to inter-city and fixed route bus operators 
and to demand responsive or charter operators. Non-compliance 
with the ADA regulations is an issue throughout the bus 
industry. It is not limited to curbside bus companies.
    Based on the hundreds of telephone calls we received from 
bus companies about ADA regulations, we have found they 
frequently do not understand the responsibility to provide 
timely, accessible bus service to individuals with 
disabilities. While the Department of Justice is the only 
entity with the power to enforce violations of the ADA 
regulations, the Department of Transportation has done much to 
assist its efforts. In addition to reminding motorcoach 
operators about their annual reporting requirements, we compile 
data and submit the industry data to the Department of Justice, 
as well as complaints.
    Our safety partnership with the motorcoach industry is 
vital toward making our highways safer. Each motorcoach 
company's effort is needed to improve the safety of our highway 
passenger transportation.
    Mr. Chairman, during my tenure at FMCSA, I have worked hard 
to accomplish the goal of increased safety for our Nation's 
traveling public. I want to thank you for giving me the 
opportunity to briefly outline some of the work we have done to 
make this segment of transportation safer. I would be happy to 
answer any questions.
    Thank you.
    Mr. Petri. Thank you very much for your summary.
    Mr. DeFazio, do you have questions?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Ms. Sandberg, I appreciate the ongoing efforts. But given 
the fairly dramatic increase in funding that we put forward in 
SAFETEA-LU, could you just focus a little bit more on the new 
initiatives, or how you are augmenting the ongoing safety 
program? And in particular, obviously to the subject of the 
hearing here, given the number of violations found and the 
other issues that were raised by your scoring system.
    Ms. Sandberg. Certainly. The first thing that we realized, 
in order for us to identify unsafe motorcoach operators, we 
have to have data in our data base. We have about 680,000 
companies that we regulate nationwide. Of those 680,000 less 
than 4,000 are motorcoach companies. So first we had to have 
data that would help us identify, out of those hundreds of 
thousands of companies, which ones we need to focus on, whether 
it be truck companies or motorcoach companies.
    Our data system is driven by roadside inspections, it is 
driven by compliance reviews, it is driven by crash data and 
other types of information that we receive. One of the problems 
that we have is in SAFETEA-LU, there is a requirement that we 
are no longer able to do roadside inspections of motor coach 
operations. SAFETEA-LU prohibits us from doing that. We have to 
either do it at origin or destination.
    So what we are doing is now focusing our inspection efforts 
at origin or destination sites. Some of that is working 
together with our State partners to make sure that they have an 
established plan and that they are actually doing motorcoach 
inspections.
    The other thing that we have done through our grant 
operations is make sure that each State has bus ramps. Buses 
are much more difficult to inspect than a truck, because it is 
hard to crawl under them. So we provide the State agencies with 
bus ramps, and they are able to purchase those bus ramps so 
they can actually roll the bus up onto the ramps and get under 
the bus to look for safety defects underneath. But again, the 
inspections drive the overall data system. So by feeding the 
system at the front end by doing more inspections, that will 
help us better identify the unsafe bus operators at the back 
end.
    We don't have enough bus crashes annually, as I said, there 
are about 22 fatalities that are attributed to motorcoach 
operations each year, to really use crashes as the only 
indicator. So by doing more inspections, that will help us 
drive more compliance reviews. In addition to the inspections, 
we have set these higher goals of doing compliance reviews on 
more motorcoach operations than we had done in the past. Those 
compliance reviews will also help derive additional data to 
help us focus on unsafe operators.
    And then the last thing is really working on companies that 
we call, we basically label them as non-entrants. These are 
companies that are actually doing business in interstate 
commerce and they have never registered with us. So we are 
working with our State partners to identify those companies 
that actually should be registered as an interstate carrier, 
get them registered and then get them into the system so that 
we can begin collecting data on them to determine whether they 
are safe or not.
    Mr. DeFazio. As I said, last year, there were 39 
fatalities, there was an increase. Just back to this issue 
which I raised in my opening statement, we had found in your 
previous, you apparently are now augmenting your data base, and 
we will perhaps have more data. But even previously, when the 
25 major curbside bus operators were reviewed in SAFESTAT, six 
came up unsatisfactory. But only three were marked for review. 
Why would someone who came up with an unsatisfactory score not 
get a more comprehensive review?
    Ms. Sandberg. If they are marked unsatisfactory, then 
typically we have an enforcement action ongoing, and we will 
review them eventually. But we might not have done a recent 
compliance review on that company. There are a number of 
reasons. I would have to know the specific companies. We would 
be happy to, if we have the information, provide you with that 
information.
    Additionally, some may have gone out of business.
    Mr. DeFazio. So the normal procedure would be that anyone 
rated unsatisfactory, would with some sense of urgency--do you 
have enough inspectors or people to physically do this? Is that 
part of the problem?
    Ms. Sandberg. We have about 700, close to 800 people 
nationwide, in the Federal Motor Carrier Safety Administration. 
But that is augmented by over 11,000 State and local law 
enforcement that the grant monies, the increases that you talk 
about that were provided in SAFETEA-LU, that money goes to the 
States to augment those additional resources for inspections, 
compliance reviews and audits.
    So we feel that given that volume we need to make sure each 
State has an identified motorcoach program. One of the things 
that we looked at last year when we saw the increase in 
fatalities wa that we started asking what States had specific 
motorcoach safety programs. Not many did. While they did some 
inspections, they did not have an identified program.
    So what we are doing through the commercial vehicle safety 
plans is telling them, you have to have an identified program 
on how you are going to target motorcoach operations in your 
respective State. Some States are going to have a more robust 
program. For example, I would say that the best State is New 
Jersey right now. Because of the number of motorcoaches that 
operate in that State, they already have an identified program. 
So we are looking at how many motorcoach operations occur in 
that State and looking at how robust the State's program needs 
to be. That is the work that we are doing right now.
    Mr. DeFazio. Is there a deadline for the States that don't 
currently have programs?
    Ms. Sandberg. Yes. We are meeting with our State partners 
in May at a large meeting where we will talk about their MCSAP 
grants. They will write their commercial vehicle safety plans 
for this year over the summer, and those plans have to be 
established by October.
    Mr. DeFazio. And if it is not, is there some sort of 
extension of Federal--
    Ms. Sandberg. If it is not, we do not approve their plan 
and we do not give them money. We will hold the money until 
they have an approved plan.
    Mr. DeFazio. So there are consequences. Again, I am just 
concerned that we use the past fatality measure as, I mean, 
yes, it shows some level of success, although the up spike is 
of concern, and that is not an insignificant number of lives, 
39 lives. So that is an ongoing concern.
    But when you find log book problems or particularly drug 
testing problems, it seems to me anecdotally it is often 
fatigue that is found to be a factor in the interstate bus 
drivers. And then obviously lack of drug testing would raise 
tremendous concerns for people who are conducting passengers.
    Are fines being levied on these actions?
    Ms. Sandberg. Yes, they are, sir.
    Mr. DeFazio. Are they substantial?
    Ms. Sandberg. Some of the fines are substantial. In fact, 
in a couple of enforcement actions that we took last year we 
used our eminent hazard authority, which means that we can go 
into a company and rather than give them time to correct the 
problems, place them out of service immediately for eminent 
hazard. We are using this authority more and more. And, more 
specifically, on motorcoach companies because of the potential 
that if they are operating unsafely they could do more damage 
on the highway.
    Mr. DeFazio. Okay, thank you. Thank you, Mr. Chairman. My 
time has expired.
    Mr. Petri. Thank you.
    Mrs. Schmidt?
    Mrs. Schmidt. I have a question regarding the ADA 
requirements. I think one of the arguments that is made by the 
curbside operators is how costly it would be to have ADA 
requirements on their buses. But it bothers me because from a 
personal perspective, when I was elected and brought a group of 
people up here, one of them was disabled. They were able to 
raise him on the back end of the bus and get him seated in and 
he was able to use the restroom, and had no problems.
    Aren't there laws in place that require buses that are used 
for commercial purpose to have ADA accessible facilities for 
individuals, so that they can travel as freely as people that 
don't have secondary issues?
    Ms. Sandberg. The way that the ADA regulations work, that 
the Department established, for large operations, and large 
fixed route, would be more than $7.2 million in revenue a year. 
They are required by October of this year to have 50 percent of 
their fleet accessible, and by the year 2012 to have 100 
percent of their fleet accessible, with the caveat that any 
brand new buses that they buy or lease have to be accessible.
    With regard to small fixed route, and that would be under 
$7.2 million of revenue per year, there is not that specific 
deadline. However, they have the same requirement that if they 
buy any new buses or they lease any new buses, those buses have 
to be accessible. In addition, they have a 48 hour notice 
requirement, so that if somebody calls them and says, in 48 
hours, I need to take your bus somewhere, they have to provide 
an accessible bus.
    The dilemma we have had, whether it is large fixed route or 
small fixed route, is oftentimes they don't understand their 
responsibility. Companies are supposed to report to the 
Department of Transportation on whether they are meeting the 
accessibility requirements. I can tell you that up to this 
point, the reporting has been very poor across the industry. 
Last year we only had 21 percent of the bus companies actually 
file the required report. That is better than it was two years 
ago when it was 6 percent. Right now we are sending out letters 
annually saying you have to report.
    The reporting is kind of the first step, because then that 
helps us identify whether they are purchasing accessible buses 
or not and whether they are meeting the mandates. Then we send 
that information over to the Department of Justice. There are 
laws that require that these buses be accessible, whether it is 
the 48 hour notice requirement, or that they have purchased or 
leased buses.
    The way that the ADA is set up, though, the Department of 
Justice has the primary responsibility for doing enforcement on 
these cases. So what we do is when we discover either through a 
complaint where somebody calls us and says, we tried to get on 
a bus and they told us to call a larger fixed route carrier or 
somebody else, we take those complaints, we try to gather 
additional information and then give that to the Department of 
Justice to take action. We have referred 11 complaints over to 
the Department of Justice in the last 24 months.
    As we proceed forward, and we are doing new entrant audits 
where we go into a company early on, we will also look for ADA 
compliance. If we discover that there is non-compliance, we 
will send those cases over to the Department of Justice.
    Mrs. Schmidt. Do you also follow up with the Department of 
Justice to see what kind of action they have levied against 
these individuals?
    Ms. Sandberg. We ask. We do not always hear, because 
usually they will say it is under investigation. I am really 
sorry that my counterpart from the Department of Justice is not 
here today. But they do not always tell us exactly where the 
case is. They will just say it is in the works. That is all I 
have heard.
    Mrs. Schmidt. Thank you.
    Mr. Petri. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Let me ask you this. You said that you are concerned about 
the firms that operate on low economic margins, because the 
first thing you said they do is they cut safety, is that right?
    Ms. Sandberg. That is correct.
    Mr. Cummings. Do you have any sense of how profitable 
curbside services are, and how their profitability compares to 
the services, say, like a Greyhound?
    Ms. Sandberg. We do not get that kind of financial data at 
the Department of Transportation. I know some curbside 
operators do very well. I think that there are some that are 
going to be on a panel, too, after me. They may be able to tell 
you. I do not know. I do not have that specific financial data.
    Mr. Cummings. What percentage of curbside buses are 
regularly inspected by FMCSA?
    Ms. Sandberg. Well, for us to specifically inspect them, we 
work with our State partners. For example, at the southern 
border, we have hundreds of inspectors down there and we 
regularly inspect all of those buses coming across from Mexico 
into the United States. The border is really the only place 
coach carriers, the Federal Motor Carrier Safety 
Administration, has certified inspectors.
    We do have some people that are safety investigators and 
also inspectors that are spread out through the Country, but 
usually there are only four or five to a State. So we will work 
with the State agencies in that specific State and what we have 
done most recently is the Northeast Corridor Task Force, where 
a lot of these curbside bus operations have been working all 
the way from New York, Connecticut, Massachusetts, Rhode 
Island, well, we did not go quite that far, Delaware, Maryland, 
Virginia, D.C.
    We worked with local agencies all throughout that area and 
did hundreds of inspections and are encouraging them to 
continue having an inspection emphasis, not just on curbside, 
but on all motorcoach operations. Because we find that even 
other motorcoach operations, whether it is tour or charter, or 
even some of the large fixed routes, still have safety problems 
that we need to address.
    Mr. Cummings. Okay. As far as commercial bus operators, are 
they required to post any of their safety ratings on their 
buses?
    Ms. Sandberg. No, they are not.
    Mr. Cummings. And how many curbside services have you shut 
down, any?
    Ms. Sandberg. I do not have that number. I know we have 
shut down a few. What they do is typically, when we start 
enforcement action, they will go out of business. And we have 
had this problem, where we start enforcement action, they go 
out of business, they try to recreate themselves under a new 
name and then we track them down again. So that is the more 
likely scenario, whereas we are getting ready to shut them 
down, then they go out of business.
    Mr. Cummings. And just the last question, what would it 
take, give me the scenario that it would take to get you to the 
point of wanting to shut somebody down, shut a company down. In 
other words--
    Ms. Sandberg. Typically it is a flagrant violation of the 
safety regulations. One of the things that we have found with 
the curbside operators is that they are like a lot of small 
operators that we see on the trucking industry side, where they 
are simply not aware of all the safety regulations that they 
are required to follow, whether it be the types of drivers that 
they hire or that they do drug and alcohol testing.
    One of the things that we have found when we identify these 
carriers and tell them where they have deficiencies is that 
they have been very quick to correct them. What it takes is 
somebody that would go in and look, and let's say they do not 
have a drug and alcohol testing program. And the carrier 
continues to say, we are not going to have a drug and alcohol 
testing program.
    That leads us to believe that they are clearly violating 
the safety regulations, they know what they are supposed to be 
doing, and they are not doing it. Violations of this nature 
will lead us to shut them down.
    Mr. Cummings. How can we get in front of that, though? In 
other words, it just sounds like a back door approach. You have 
problems, and then we say, look, you are bad, but in the 
process, the public safety is in jeopardy. It seems like we 
need to be in advance of some of that. Are there things that 
are being done to, because you know anybody will say ignorance 
of the law. This just makes sense, particularly being ignorant 
of the way your system works.
    Ms. Sandberg. Right.
    Mr. Cummings. It seems like we are almost, you are almost 
inviting these violations. Are you following me?
    Ms. Sandberg. Yes, and there is something specifically that 
we are doing to address that. When I came into the agency three 
years ago, we were just rolling out a rule called the New 
Entrant Safety Assurance Process.
    The disagreement that I had personally about the process, 
was that it was all education focused and not enforcement 
focus. What we did was we went into carriers that were just 
operating in interstate commerce, and we would say, okay, let's 
educate you on how you are supposed to be doing business. They 
should have already known that.
    To me there are significant violations that should 
immediately shut a company down. So we are doing a new entrant 
rulemaking process right now to change the system. And there 
are going to be 11 violations that if a company has violated 
these things, and they are fundamental to safety, drug and 
alcohol testing, using drivers that are qualified, making sure 
drivers follow hours of service, those kinds of things, those 
will be in there. And if a company is not doing those, we will 
shut the company down immediately.
    I think that is one of the areas where we have clearly 
needed to strengthen our process, so that these people couldn't 
just continue to operate and pretend like they did not know 
what they were doing.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Sodrel.
    Mr. Sodrel. Thank you, Mr. Chairman. It seems like we have 
two issues on the table here with the curbside operators. One 
is ADA compliance, the other is safety compliance. ADA 
compliance is important. But it is an inconvenience for 
disabilities that are trying to travel. Failure to comply with 
safety standards is life threatening.
    I might say, in my other life, I used to be a coach 
operator. So I have a little prior experience in the bus 
business. We had a company in Indiana called Hammond Yellow 
that was known not to be a particularly high level carrier and 
was inspected several times and many of their vehicles were 
placed out of service. But the company was not closed up until 
they went off a ramp at I-70 in Indianapolis and killed two 
people, a coach of a high school athletic team and his 
daughter.
    So a previous question that was asked, it is better to get 
ahead of the curve than behind the curve. And it is serious, 
any time you close a business down or close their operations 
down, it is taking a livelihood away from someone who owns and 
operates the buses and the people that work there. So it is 
serious, I do not suggest that we take that lightly.
    On the other hand, there have been times where the system 
was a little slow to react. I do not know how these curbside 
folks, with no facilities operate, this is probably the biggest 
problem I have--the lack of any facilities to maintain a piece 
of equipment. I do not know how you do that effectively. I do 
not know how you comply with the law effectively.
    Where do you find their place of business? When you go to 
inspect a curbside operator, if they do not have a maintenance 
facility and they do not have some central place of business, 
where do you even conduct an inspection? Just on the street?
    Ms. Sandberg. One, when they register with us, they have to 
identify a place of business where they keep their central 
records. That is not necessarily where their buses might be 
kept. So when we do a compliance review, that will be where we 
go to look for their driver logs, their safety records, those 
kinds of things.
    To do inspections, we have worked with our State and local 
partners to identify where they are picking up passengers and 
dropping them off, since those are the two locations that we 
can actually do inspections. And that is where we do the 
inspections, is on the side of the road.
    Mr. Sodrel. Being from the midwest, we do not have a lot of 
that. I have noticed here in the city, a bus stopping on the 
street corner and picking people up, in fact, not far from 
where I am sitting. But it is not something that we were 
confronted with in the midwest.
    But we either have to enforce the rules formally or 
eliminate the rules. Otherwise people are competing on an 
unlevel playing field. I think the public's safety is served by 
enforcing the rules formally as opposed to eliminating any 
rules.
    Thank you for being here. I may have some questions later, 
Mr. Chairman.
    Mr. Petri. Thank you. Mr. Pascrell.
    Mr. Pascrell. Administrator Sandberg, in a 2003 speech that 
you made, you said the following: ``Our investigations revealed 
a complex web of business relations,'' point one, ``among these 
fare operators. It is challenging to determine who is 
responsible for their operations.'' I read that a couple of 
times, the first time I said, I must have read it incorrectly. 
But that is what you said.
    It is my understanding that while your administration cited 
many curbside operators in violation of safety laws, you fined 
them, you just reported that again today, and you shut them 
down, some of them. But they continue to operate. This sounds 
like an enforcement problem.
    What enforcement tools, what investigative tools do you 
need to ensure that repeat offenders are shut down permanently, 
and have I stated what you said correctly?
    Ms. Sandberg. Yes, you have stated what I said correctly. 
The dilemma is, and we have the same thing with what I call the 
low lying truck companies. These are companies that are in 
business simply to try to make some money and safety is not a 
priority to them at all. So they go into business, we identify 
them as being unsafe because they do not keep their equipment 
up, they are not drug and alcohol testing their drivers, they 
are pushing their drivers to violate hours of service.
    So we begin taking enforcement action. Then what the 
company does is they shut down and they recreate themselves. 
And they come and enter into our system as somebody new. 
Oftentimes new boards of directors, new owners, they will 
completely recreate themselves. It is very difficult for us to 
identify that they were actually this older company.
    Some of what we are doing right now in our licensing and 
registration system is, we have a number of red flags that will 
trigger in our system if a company tries to recreate itself and 
it uses an address that is similar to one that we have shut 
down, it uses a name of any of the board members that is 
similar, or an owner. Those are three flags that help us 
identify them.
    The other thing that we are doing is when we go in and do 
new entrant audits, because every one of these companies, when 
they recreate themselves, becomes a new entrant, we have to go 
in and do an audit. On bus companies, we are actually doing 
those audits at 9 months instead of 18 months.
    When we go in and do those audits we try to identify if it 
is a company that actually was in business before under some 
other name. If we identify that that is the case, we tag back 
to the old name and the old safety record where we can, and 
apply that to those companies.
    The second thing that we do, and we are working with a 
number of States, is a program called PRISM, which is our 
registration information system. Under PRISM, there are 
currently 21 States that have signed on, and it is fully 
operational. When we place a bus company or a truck company out 
of service, the biggest difficulty is getting them to stop 
operating.
    In some instances, we have actually parked people outside 
their place of business to see if they move their truck or bus, 
and we have done that recently, where we placed a company out 
of service, we were worried that they were going to continue 
operating. So we put somebody outside there for about a week to 
look to see if they were going to move those buses. They did 
not, and fortunately they followed the out of service order.
    The other way to do it, though, is through PRISM, the 
States mark the license plates of that particular carrier in 
their system, so that the plates get pulled and revoked and 
they cannot continue to operate. It is much more of a flag for 
enforcement officers if there is no license plate on the truck.
    Mr. Pascrell. So what you are saying is you do have the 
tools, you have the resources and the tools.
    Ms. Sandberg. The dilemma is, we only have 21 States that 
have PRISM operational right now.
    Mr. Pascrell. Excuse me. You have the resources and the 
tools--
    Ms. Sandberg. Yes, we do.
    Mr. Pascrell.--to enforce the Federal laws. Is that what 
you are telling us today?
    Ms. Sandberg. Yes.
    Mr. Pascrell. Thank you. Second question is this. The 
Americans With Disabilities Act compliance and enforcement is 
within the jurisdiction of the Department of Justice, correct?
    Ms. Sandberg. Correct.
    Mr. Pascrell. I fail to comprehend why not being in 
compliance with the ADA has seemingly no bearing on the 
granting of operating authority of a bus carrier. If a company 
is in clear violation of the Federal law, why should a Federal 
agency grant it authority to do anything? So in your opinion, 
how can Congress remedy this situation?
    Ms. Sandberg. The way that our licensing regulations are 
set up, there are three things that we look at to grant 
operating authority: the economic, safety and financial 
responsibility, and these are old carryovers from the ICC days, 
and those are the only three things that we look at. ADA is not 
part of that.
    One of the things that we are doing, though, to try to be 
more aggressive with regard to the Americans With Disabilities 
Act, sir, is that we are reminding new entrants of their 
responsibilities under the ADA and in our new entrant 
rulemaking that I just spoke about earlier, we are going to 
have a component that when we go in and do a safety audit and 
we identify non-ADA compliance with any company, we will then 
forward that to Justice, so that they can begin taking 
aggressive steps to address those companies.
    Mr. Pascrell. Should there be a Federal law mandating, and 
is there not a Federal law mandating that even small companies 
comply with ADA?
    Ms. Sandberg. They have to have 48 hours notice, yes. And 
those are much more difficult to identify.
    Mr. Pascrell. And who enforces that, the Justice 
Department?
    Ms. Sandberg. Yes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Sodrel, did you have additional 
questions?
    Mr. Sodrel. No, Mr. Chairman, not at this time.
    Mr. Petri. Okay. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    A couple of things that have come up, Madam Administrator. 
I was concerned to hear about the out of service and still 
operating issue. I do not know what else we can do in terms of 
more. Has there ever been, if someone was to attempt, and 
apparently they must have, are there instances where people 
have attempted to continue operating?
    Ms. Sandberg. Yes.
    Mr. DeFazio. At that point, does it become a criminal 
issue? Has there been a criminal prosecution if they are under 
a Federal compliance order, and they are ignoring the order and 
continuing to jeopardize public safety?
    Ms. Sandberg. We try to work with the States to identify 
those carriers, place them out of business. There have been 
instances, I think, where criminal charges have been brought at 
a State level. I think there may have been some instances where 
a U.S. attorney has brought some Federal criminal charges. But 
they are very, very difficult.
    Mr. DeFazio. Right. Well, I mean, the recreation, it seems 
to me that perhaps we need a different fitness standard. I am 
thinking of aviation. Part of a fitness review is financial 
wherewithal, the credentials of the principal officers and 
those sorts of things which would, if we had that standard and 
a company had had problems, and they tried to reestablish 
themselves under another business name, if we had more 
stringent fitness standards, they would not have any potential 
of getting another number.
    Do you feel that perhaps, and whether it could be done 
administratively or whether we would have to do it statutorily 
that we should have more robust fitness standards? Because you 
said you can't look at and don't look at their financial 
condition, which is a big red flag in the aviation industry and 
I would assume it would be the same in bus or trucking.
    Ms. Sandberg. When the ICC terminated and gave us a lot of 
the functions that used to exist there, a lot of those 
financial regulations went away under the ICC Termination Act. 
One of the dilemmas we have, and we have had this in the 
medical arena, even, in comparing us to aviation, is the volume 
of companies that operate in this line of business, 680,000 
companies.
    So we had this issue come up last year about why couldn't 
we put the same kind of medical requirements on truck and bus 
drivers that we put on airline pilots. There is a much smaller 
pool of airline pilots than there are truck and bus drivers. We 
look at our pool being about 7 to 10 million as opposed to, I 
think it is 600,000 for airline pilots. If we tried to equate 
just that regulation regime alone to our industry, it would be 
hundreds of millions of dollars.
    So I guess that is the balancing act. We are trying to 
tighten down some of our regulations to identify loopholes. 
Having been a former police officer, I can tell you, most of 
the time the crooks are one step ahead. These people that do 
not want to do business right are always going to try to find a 
loophole and continue to do business. That is where we really 
need to work with our State and local partners to identify 
these pockets of problems and really focus on them and take 
care of the safety issue that they are causing.
    Mr. DeFazio. Is the issuance of a number, which I guess is 
sort of the certification you provide, is that a routine 
procedure? It is my understanding in talking to staff that in a 
couple of States, Massachusetts and New York, the police have 
reported that essentially the addresses provided were fake, and 
then the whole question of the required 18 month review, which 
I guess for new operators is not always conducted.
    So I mean, is this just because of the volume, it is a 
rather routine paper exercise, and you do not have the 
wherewithal or it is not required that there actually be a site 
visit or some sort of confirmation that this is a bona fide 
business and that that address actually exists, and therefore, 
the records might exist that we would go and review?
    Ms. Sandberg. To get the actual registration number, that 
is a fairly easy process at the front end. You can go on to our 
web site and you can probably register to be a company today 
and it would take you maybe an hour, if that. That part is 
fairly easy. The audit process though is where we help identify 
those that have filed false addresses. Because one of the 
things that we have to have is the ability to contact that 
company to go do the audits.
    As I said, for motorcoach operations, we flag them that we 
are going to do a motorch ch audit within the first nine months 
of operation. For all other commercial ch ch vehicles, it is 18 
months. That is when we will identify if the information that 
they provided on that registration information at the front end 
was correct or not.
    If they do not respond to an audit request, we can simply 
flag them out and tell them that they can no longer operate. We 
are strengthening some of our new audit process in this new 
rulemaking to do just that, to make sure that if these people 
do not respond to an audit request or they are simply evading 
us by giving us a false address that we can deal with them in 
that manner.
    Mr. DeFazio. Okay. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Several members have additional 
questions. I thought I might ask, myself, you alluded to this, 
but do you have a--clearly this is, primary front line 
enforcement within a Federal framework must be done by the 
State and local authorities. Is there a big difference between 
States so far as complaints from the public about this kind of 
thing, number one? And is there a big difference between 
complaints from the public from these, because of experiences 
with these sort of jitney or China operators, whatever you want 
to call them, and what we regard as a more traditional 
Greyhound and so on?
    No service is going to be perfect. There are going to be 
bad experiences just in the nature of, unfortunately, in the 
nature of just doing business and interaction. Is this a 
disproportionate source of problems and is it localized? Should 
we be focusing on helping some States beef up their operations? 
What is the nature of the problem and how can we deal with it, 
basically?
    Ms. Sandberg. The nature of the problem is very unique to 
what I would say the Northeast Corridor. I can tell you, having 
come from Washington State, we do not have these kinds of bus 
operations out there where they go curbside. You just would not 
see a bus pull up by a sidewalk and see a bunch of people get 
on.
    Mr. DeFazio. Didn't the Green Tortoise come to Washington, 
or is that an Oregon and California and Mexico thing?
    Ms. Sandberg. That is Oregon and California.
    Mr. DeFazio. Okay.
    [Laughter.]
    Ms. Sandberg. But it is very unique to the Northeast 
Corridor. The only other place that we have identified a 
corridor where there are curbside operations is California to 
Nevada, primarily into the Las Vegas area. And we are seeing 
some of those curbside operators pop up there.
    There are some smaller, more small fixed route and large 
fixed route. Typically they operate out of a terminal. They are 
easy to identify.
    Again, in looking at the curbside operators, that being 
primarily a Northeast Corridor problem, we are targeting them 
in a very specific way. But we are looking at ch ch ch ch 
across the bh rd. To keep it in perspective, of the 680,000 
companies, this means, and I am looking at about 3,900 
companies, and they equate to whatever fatality number, 22, 39. 
If you look at all commercial ch ch vehicle fatalities, it is 
5,000. We are trying to drive those numbers down.
    So while I need to focus attention here, and believe me, I 
honestly believe that one fatality is too many. But I also need 
to focus on the other 4,000 plus fatalities that occur with 
regard to trucks. So we are trying to balance our resources. 
Part of doing that is really making sure that the States, which 
have far more people out there on the rh dside, the 11,000 plus 
people, have a formalized program.
    Now, for some States that do not have a large curbside 
problem, they are not going to have a huge focus on curbside 
operators. In fact, if they did, we would say, hey, that should 
not be in your plan unless you can tell us where the curbside 
operators operate in your State. But they should have a ch ch 
ch ch program. Every State has charter operators, every State 
has tour operators. And those bus companies need to be 
inspected also. They need to make sure that their drivers are 
being drug and alcohol tested. And they need to make sure that 
they are following the hours of service rule.
    So occasionally, as you know, Mr. Chairman, we recently had 
a bus crash up in Wisconsin and five people died in that crash. 
That was a charter operator. We are working together with the 
NTSB to try to identify what the cause of that crash was.
    But we need to focus on what the unique problem is for each 
State, and then make sure the State has a plan on how they are 
going to go about addressing that. Some of that is through 
doing inspections at origin or destination. It is through doing 
these targeted compliance reviews. And since we are going to be 
doing another 450 this next year, making sure that we target 
the right companies and continue to look at companies and make 
sure that all companies are operating safely.
    But it is very unique to the Northeast Corridor, the 
curbside operators.
    Mr. Petri. And so far as looking at it from the point of 
view of the traveling public, clearly they must be providing a 
service some people want or at least maybe because of cost or 
because of convenience, they have identified shifts in the 
market quicker than more traditional operators?
    Ms. Sandberg. Right. I run into people all the time that 
say that they have taken these curbside operators and they had 
a great bus ride. But I am not sure, I do not watch the market 
economy, obviously they are focusing on something. Because they 
are filling up the buses and they are moving people.
    There are millions of people that take bus transportation 
every year. It is a very safe, economical way to travel. And a 
lot of people use it, whether it is the curbside operators or 
the larger fixed routes.
    Mr. Petri. So it is a marketing opportunity for Greyhound 
or people like that, that that are not getting into certain 
communities, presumably, or whatever.
    Ms. Sandberg. I would leave that for the folks at Greyhound 
or whoever might be here from ABA.
    Mr. Petri. But do you get a disproportionate amount or 
would you say that complaints from the public are roughly the 
same as best you can tell from the different types of 
operators? Or is this a hot spot of complaints?
    Ms. Sandberg. We have not had hundreds of thousands of 
complaints, actually I get far more complaints in the area of 
household goods than I do with regard to ADA compliance. But we 
have gotten complaints. And to me, any complaint is serious. If 
somebody needs to have affordable transportation and it is 
being denied, we need to take that very seriously. So any 
complaints that we have received, what we have tried to do is 
identify the carrier, find out do they have accessible buses, 
and check to see if they are meeting the regulations. And if 
they are not, then forwarding that case to the Department of 
Justice to take appropriate enforcement action.
    Mr. Petri. Thank you.
    Mr. Duncan?
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing. This is something that I don't 
know really anything about. I am sorry I did not get to hear 
most of your testimony and your responses to questions, because 
I have been with 136 students and teachers from a school in my 
district.
    But let me ask you this. And maybe you have already covered 
this. How many bus companies are there total, charter operators 
and everything, that are doing the right thing and registering 
with you? How many bus companies have gone through the legal 
process, so to speak?
    Ms. Sandberg. We have registered in our data base 3,900 bus 
companies.
    Mr. Duncan. Thirty-nine hundred.
    Ms. Sandberg. Thirty-nine hundred.
    Mr. Duncan. And then, how many of these curbside operators 
are there that you know about or what is your best estimate?
    Ms. Sandberg. The estimate changes daily. But I believe 
right now 24, 25, is what they tell me for curbside operators.
    Mr. Duncan. So it is not really fair, is it, to make all 
those honest people do the right thing and then let these 
others not do that. Is that basically one of your feelings?
    Ms. Sandberg. That is correct. That is why we are doing 
strike force activities.
    Mr. Duncan. That would be understandable. And you say that 
it would take, did I hear you say that it would take an hour, 
only about an hour to register, is that correct?
    Ms. Sandberg. It is right around there. It depends on the 
complexity of the paperwork. But if you go online and fill the 
forms out online, it is not very difficult.
    Mr. Duncan. Do you think that the regulatory requirements, 
are they so burdensome that it would cause a great increase in 
the price these companies would have to charge? I had a member 
of my staff tell me that there is one company that takes people 
directly from Union Station to New York City for $35. Do we 
have any kind of idea about, if somebody goes through all your 
regulatory processes, would that price have to double or triple 
or what?
    Ms. Sandberg. No. Most of the companies that follow our 
regulatory process can actually probably beat that fare. But 
the folks from ABA could answer specific pricing questions.
    Mr. Duncan. And the company, you said it was a charter 
company in Wisconsin that had a recent wreck, but that was not 
a curbside operator?
    Ms. Sandberg. No, it was not.
    Mr. Duncan. How many, say, in the last--when was this 
curbside operation, when was this first bought to your 
attention?
    Ms. Sandberg. I believe in 2004 is when we started the 
Northeast Corridor Task Force.
    Mr. Duncan. So since that time, how many wrecks have there 
been of these curbside operators, do you know? Have there been 
a lot of accidents?
    Ms. Sandberg. My staff tells me there have been three.
    Mr. Duncan. Three. Anybody been killed?
    Ms. Sandberg. No. Except for I guess somebody ran into the 
back of a bus and that person died. But it wasn't the bus's 
fault.
    Mr. Duncan. Are these companies, based on your 
investigation, do they have insurance?
    Ms. Sandberg. That is part of the requirement of our giving 
them operating authorities. They have to post insurance.
    Mr. Duncan. But as far as the curbside operators, you don't 
know whether they have insurance or whether they don't?
    Ms. Sandberg. No, they have to show us that they have 
insurance. I do know that some of the curbside operators have 
had difficulty getting insurance, particularly if we have been 
taking enforcement action on them. But they have to post 
insurance and show that their insurance is valid in order for 
us to allow them to continue to operate.
    Mr. Duncan. I see. So there may be some curbside operators 
operating without insurance, but all the ones that you have 
checked so far have it, is that what you are saying?
    Ms. Sandberg. If they are operating in interstate commerce 
and they have registered with us, they have to have insurance. 
Now, there are some--
    Mr. Duncan. Well, I know, but the problem is that they 
don't register with you, at least when they first start 
operating, is that correct?
    Ms. Sandberg. No, if they are operating in interstate 
commerce, by law they have to register with us. What we have 
found, though, in working with our State and local partners, 
there are some that are trying to operate, once we identify 
that they are operating, in interstate commerce, which means 
that they are crossing State lines. We go to the company, tell 
them that they have to cease operations until they register, 
and until they comply with all the financial requirements.
    Mr. Duncan. I guess I am a little confused. You said, I 
thought you said they all register with you right at the first. 
And that surprised me. I thought these were companies that that 
were not registered. But they all register with you right at 
the very first.
    Ms. Sandberg. They are supposed to, yes.
    Mr. Duncan. Doesn't that trigger the regulatory process, 
then?
    Ms. Sandberg. Yes, it does. That means that they have to 
have insurance in order to move. In fact, we will not give them 
a number unless they can show that they have insurance. We will 
not give them the authority to operate without insurance.
    Mr. Duncan. You are confusing me, because if a company has 
to register with you when it first starts operating, and that 
triggers the regulatory process, then why are they called 
curbside operators? I mean, there is something real simple that 
you or I one is missing, and it is probably me.
    But you said that they can't operate until they register 
with you and they all register with you. And that starts a 
regulatory process. So what I am trying to figure out is, how 
do you call them curbside operators? They just haven't gone 
through all the steps yet?
    Ms. Sandberg. No, the definition of a curbside operator is 
somebody that picks up and drops off their passengers at a 
curbside. They are a regular bus company. They have registered 
with us, they just don't operate out of terminals like 
Greyhound or Peter Pan or one of those companies. That is why 
they are called curbside operators. They operate a bit 
differently in that they do not have a terminal site that they 
pick up passengers and drop passengers off at.
    Mr. Duncan. Well, that by itself is not illegal, though, is 
that right?
    Ms. Sandberg. No, it is not.
    Mr. Duncan. Well, if all these curbside operators register 
with you and that creates a regulatory process, then I still 
don't see, I really thought there was, I thought these people 
were all operating illegally, but they are not.
    Ms. Sandberg. No. What will happen occasionally, and this 
is only occasionally, and we have the same problem with 
trucking companies, where you get somebody that gets the idea, 
hey, I want to go into business. They go and they buy a bus and 
they just start picking people up. Those are what we call non-
entrants. It means that they don't know that all these rules 
and regulations apply to them. If they cross State lines, then 
our regulations apply.
    And as we have done these strike force activities, we have 
identified some of those companies. But they are few and far 
between. A majority of them know that they have to register 
with us, they register with us, they get their insurance, they 
put the name on the side of the bus and they start operating.
    Mr. Duncan. All right, but then you said that some of these 
companies, you don't know whether they are abiding by the hours 
of service rules, you don't know whether they have given drug 
tests to their employees, and all that kind of thing. Do you 
not, when they register with you, do you not immediately tell 
them of all hose things and then go ahead and start checking 
them?
    Ms. Sandberg. They are made aware of our rules. But because 
we have 40,000 and 50,000--it is between 40,000 and 50,000 new 
entrants every year in interstate commerce, and that is truck 
and bus companies combined. What we do is, the rule requires 
that we get to those new entrants within the first 18 months of 
operation. We don't do the audit prior to them getting 
operating authority. They actually can get operating authority, 
begin operating and then we go in and do the audit.
    With bus companies, specifically, we do it within the first 
nine months of operation. We will go in and look at all of 
their records, make sure that they are doing drug and alcohol 
testing, make sure that they have drivers that have a passenger 
endorsement, look at their hours of service logs, those kinds 
of things. And then of course, any truck or bus that is out 
there, whether they are in new entrant or have been in business 
for a while, as they pass the rh dside or if the State chooses 
to inspect them, can inspect them at any point in time.
    Mr. Duncan. So if a curbside operator registered with you 
at the first and you said you can't get to them possibly for 18 
months--
    Ms. Sandberg. The first nine.
    Mr. Duncan. Oh, the first nine months. So if they have 
something happen six or eight months, they could be in 
operation six or eight months and there is no real violation 
that they have done, if it is your agency's fault or whatever 
for not getting to them sooner, is that right?
    Ms. Sandberg. We try to get to them in the first nine 
months. If they do something at month five, we do not have 
control over that.
    Mr. Duncan. Okay. Thank you very much.
    Mr. Petri. Thank you. Mr. Sodrel?
    Mr. Sodrel. Thank you, Mr. Chairman.
    I would like to relate a little short story to you. You 
have two kinds of people that fail to comply with the law. You 
have people who are ignorant of the law and you have people 
that do it with malice and forethought. I had a candid 
conversation with one of your inspectors, and this is several 
years ago, so I do not think I am doing him a disservice. I 
told him I thought he came in and did inspections at our place 
because the coffee was good. That is the way we started the 
conversation.
    He said, well, the coffee is good, matter of fact, but he 
said that the system of evaluating agents was based more on 
process than results, that when he was first hired, he started 
chasing bad guys that were bad guys by malice. Well, if 
somebody is doing it with malice, they try to cover up the fact 
that they are violating the law. They know they are violating 
the law, so they try to make sure you don't find out about it, 
which requires checks to see when a vehicle may have gone 
across a way station, you have to pull fuel tickets, see when 
it was fueled and look at motel room receipts. You have to do 
all this work to find the person that is doing it with malice.
    The inspector was told that he was not doing enough audits. 
So I was just wondering, is your system of evaluating agents 
still process oriented or is it results oriented? Is it bad 
guys caught or going through the motions?
    Ms. Sandberg. It is very much results oriented. I am not 
going to say that it hasn't always been that way. We clearly 
had a bit of an education bent when I came in. But I am an 
enforcement person. I came from the State Police, and I am 
about results. And that is what we get measured on, both by OMB 
on how they look at how much money they give us and by the 
Members up here on the Hill, on whether we are getting results 
from our programs.
    So we have modified some of our programs to be more 
enforcement focused. I believe that first people need to be 
educated in what their responsibilities are as a business 
operator and that we need to make sure everybody understands 
what the law is, that we write our rules in plain English. As 
you know, sometimes in Government, particularly if you get a 
lot of lawyers involved, and I can say this because I am one, 
it is not easy for the average person to understand what it is 
that we put on paper.
    So we need to make it very clear on what our expectations 
are that they are supposed to do, if it is drug and alcohol 
testing, how do they go about doing that, if it is getting 
drivers with commercial drivers licenses, what should they look 
for, those kinds of things.
    But in the back end, there are those people that just 
simply, no matter how much we educate them, are not going to do 
it. That is when we need to have the enforcement hammer and we 
need to take care of those people, and if they don't comply 
after we enforce, then we need to take them out of business. 
They need to decide to be doing something different.
    So that is the strategy I have used the last three years 
that I have been here. And if you look at a lot of our 
rulemakings, that is the focus that we are moving toward, is 
education at the front end, make sure they understand what 
their responsibilities are as a business owner, coming into the 
commercial vehicle business, and then if they don't get it 
after that, then we need to enforce.
    Mr. Sodrel. If I might just follow up on that one, Rudy 
Guiliani went in as mayor of New York, they had a system of 
policing where you basically had precincts and people went out 
in the precincts and did whatever they did. His idea was, we 
need to throw the resources at the problem. So we need to 
identify where are the problems, and rather than having 
everybody patrolling every place, we throw our assets at the 
place where the most problems exist.
    And the question is, do you have any similar system with 
regard to enforcement today where you can use the assets to 
their best advantage. Obviously, everybody has a finite number 
of assets.
    Ms. Sandberg. Absolutely. That is our SAFESTAT system. Not 
everybody likes our system. That is too bad. Clearly, the 
audits and the inspections that have been done on that system 
show that it identifies high risk carriers. The system is 
driven by inspections at the rh d side, or in the case of ch ch 
ch ch, at origin and destination.
    So all the inspections that are done by the hundreds of 
thousands of people that are out there, actually it is over 3 
million rh dside inspections done every year. All those 
inspections are uplh ded into our system, so it identifies what 
company was inspected, when were they inspected and what 
violations were discovered.
    We also look at ch ch carrier management areas as we go in 
and do compliance reviews and other ways, when we are doing 
audits. We also look at crash data. States report crash data to 
us and that is uplh ded into the system.
    The system then has an algorithm that looks at all other 
carriers that are like that particular carrier and it 
identifies those that are the highest risk. Then the highest 
risks are rated in our system and then our enforcement people, 
along with the State folks, are told to go visit this carrier. 
This is considered the highest risk carrier, they are at a much 
greater risk for being involved in a crash, not maintaining 
their vehicles, other problems. And that is how we go and 
visit.
    Mr. Sodrel. Thank you. Thank you for being here today, and 
thank you, Mr. Chairman.
    Mr. Petri. Thank you, and we appreciate your contribution 
to this hearing.
    Ms. Sandberg. Thank you.
    Mr. Petri. The second panel consists of Jacqueline Gillan, 
Vice President, Advocates for Highway and Auto Safety; Marilyn 
Golden, Policy Analyst at the Disability Rights Education and 
Defense Fund; Bruce Hamilton, President of Local 1700, 
Amalgamated Transit Union; and Peter Pantuso, President and CEO 
of the American Bus Association.
    We welcome you all to this hearing. We appreciate the 
effort that went into your prepared statements and we look 
forward to hearing your approximately five minute summaries of 
the same, starting with Ms. Gillan.

 TESTIMONY OF JACQUELINE S. GILLAN, VICE PRESIDENT, ADVOCATES 
 FOR HIGHWAY AND AUTO SAFETY; MARILYN GOLDEN, POLICY ANALYST, 
 DISABILITY RIGHTS EDUCATION AND DEFENSE FUND; BRUCE HAMILTON, 
PRESIDENT/BUSINESS AGENT, AMALGAMATED TRANSIT UNION LOCAL 1700, 
  AFL-CIO; PETER J. PANTUSO, PRESIDENT AND CEO, AMERICAN BUS 
                          ASSOCIATION

    Mr. Gillan. Thank you very much. I would like to extend my 
appreciation to the Subcommittee for having the hearings today 
and for inviting advocates to testify.
    Many of us in this hearing room have family members of 
friends who have taken advantage of bargain fares offered by 
intercity curbside bus operators or put our child on a 
chartered school bus for an out of town school field trip, or 
traveled on a church-sponsored trip using hired bus 
transportation. Motor ch ch safety is a serious concern for 
anyone who relies and uses this growing and affordable mode of 
transportation.
    Unfortunately, when it comes to ch ch ch ch safety, 
consumers are bh rding buses blindfolded because of chronic and 
continuing failures by the Federal Motor Carrier Safety 
Administration to regulate the safety of this industry and the 
inexcusable lack of public information available to companies 
about the safety record of ch ch ch ch companies.
    In particular, little is known about the size of curbside 
ch ch ch ch operations, including how many companies are 
evading Federal and State safety requirements and how much 
Government oversight is being applied to ensure that unsafe 
operators and unsafe drivers are off the rh d.
    Since 1999 alone, NTSB has investigated and reported on 
eight major ch ch ch ch crashes. Because ch ch ch ches carry up 
to 55 passengers, when a crash does occur, it can be 
catastrophic and deadly. Every day there are thousands of small 
commuter airline flights in the U.S., yet in most cases each 
aircraft is carrying fewer passengers than over-the-rh d ch ch 
ch ches that may be filled to capacity. Unfortunately, public 
authorities have chronically overlooked ch ch ch ch safety and 
it is not being held to the same high standards as aviation 
safety.
    One of the major problems is that the Federal Motor Carrier 
Safety Administration lacks reliable information on State 
annual bus safety inspections, and there are major deficiencies 
for identifying ch ch carriers, including ch ch ch ch operators 
that are high safety risks. Today, only half of the States even 
have an improved periodic inspection program despite a 1984 
Federal law directing DOT to issue standards for annual 
inspections of commercial ch ch vehicles, including ch ch ch 
ches.
    There have been countless studies by GAO and the DOT 
Inspector General documenting insufficient data, incomplete 
data and inaccurate data that the FMCSA has about these 
carriers. Also, Government compliance reviews or the safety 
evaluations of commercial ch ch vehicle operators, where the 
Government gives rating scores of satisfactory condition or 
unsatisfactory, are grossly out of date or for the most part, 
not given at all to the vast majority of operating companies.
    Data deficiencies and incomplete safety information keeps 
consumers in the dark. Let me give you a brief example. My 
staff went on the FMCSA web sit and evaluated ch ch ch ch 
information in four States: Maryland, Wisconsin, Oregon and 
Texas. Let me use as an example my own Sate of Maryland. There 
were 100 ch ch ch ch companies listed, more than half of them 
were not rated at all, 5 had a conditional rating and 39 had a 
satisfactory rating. Of the 39 companies with a satisfactory 
rating, more than half were totally incomplete and did not 
evaluate these companies in more than in all four of the 
possible categories.
    Also, these ratings were out of date. Most of them were 
given in the 1990s. In fact, there was one rating that had been 
assigned 18 years ago.
    There are also inadequate Federal and State requirements 
for ch ch ch ch drivers, even though they carry 55 people. 
Motor ch ch drivers are required to have a commercial drivers 
license with an additional bus endorsement that can be obtained 
by passing a short knowledge test.
    But there is no behind the wheel driving requirements in 
the Federal law. Although DOT has been studying this for 20 
years, they produced a model curriculum and they were directed 
by Congress in the 1991 ISTEA Act to issue an entry level 
driver training rule.
    In May of 2004, they did an abrupt about face and issued a 
rule that did not require any behind the wheel training for 
candidates seeking an entry level CDL to operate a truck or a 
bus. As a result of this rule, advocates filed suit against 
FMCSA and last year, in a unanimous and blistering decision, 
the U.S. Court of Appeals for the District of Columbia found 
that the final rule was arbitrary, capricious and an abuse of 
the agency discretion and remanded the rule to FMCSA.
    What can be done? Advocates would like to offer some 
suggestions for Congressional consideration. First, we need to 
have the information and we would recommend requiring a 
detailed oversight report on curbside ch ch ch ch operating 
safety. Congress should ask the DOT Inspector General or 
another Federal oversight organization, such as GAO, to conduct 
an in-depth evaluation of curbside ch ch ch ch operations that 
identifies how many there are, which ones are successfully 
operating or evading State and Federal compliance requirements 
and what needs to be done to ensure a high level of public 
safety.
    Second, we need more stringent State bus inspection 
programs. Third, we need to accelerate the basic reform of 
safety data reporting and compliance reviews. This has been a 
recommendation of the NTSB on their most wanted list since 
1999.
    We also need to upgrade the testing requirements for both 
entry level CDLs and special endorsements, especially those for 
ch ch ch ch operations. And finally, we need to require entry 
level commercial ch ch vehicle and advanced ch ch ch ch driver 
training requirements for actually operating a ch ch ch ch.
    This is the conclusion of my testimony. There is much work 
to be done, and Advocates would very much like to work with 
this Committee to ensure that no matter whether you get on a 
plane or get on a train, or use a bus, that you ought to be 
guaranteed the same level of safety by our Federal Government.
    Thank you very much.
    Mr. Petri. Thank you.
    Ms. Golden.
    Ms. Golden. Thank you.
    More than 15 years ago, I watched with exhilaration and 
pride as the first President Bush signed the Americans With 
Disabilities Act, granting millions of people with disabilities 
comprehensive civil rights. Exhilaration because it was the 
culmination of work by thousands of people with disabilities 
and our supporters, and pride because my colleagues and I at 
the Disability Rights Education and Defense Fund, a national 
law and policy center on disability civil rights, had made a 
significant contribution to the ADA. We have been deeply 
involved in its unfolding ever since.
    As our society recently gave our final farewell to Rosa 
Parks, I was reminded that the Montgomery bus boycott she 
started fully integrated those buses in 1955. But in 1998, more 
than 40 years later, people with disabilities were still 
waiting for the right to ride the long distance bus. How long, 
we asked, must we wait.
    Then almost eight years ago, one of the last pieces of the 
ADA fell into place when the U.S. Department of Transportation 
issued the rules guaranteeing disability access in intercity 
bus travel. As that regulation was implemented, we saw 
companies that had supported the ADA and companies that had 
resisted it come into compliance with that landmark law.
    In my own life, what once would have been impossible became 
unremarkable when one day a few years ago I needed transport 
between two major cities in Texas, my State of origin, and I 
had a smooth and anonymous trip on an accessible lift-equipped 
over-the-rh d bus.
    But in the last few years, the rise of curbside operators 
that completely disregard the ADA has meant that no longer are 
all transportation options available to people with 
disabilities. I will address what the ADA requires of these 
companies, at least the major things, with a lot of the details 
in my written testimony. The key to bus access for mobility 
impaired people, who like me, can't use the steps, is the ADA's 
requirement that all new buses must be wheelchair accessible.
    The cost issue for this is ameliorated by a DOT subsidy 
program unrelated to the ADA. But most curbside operators do 
not obtain new buses. They get used buses, which means they 
fall under what the Americans With Disabilities Act requires 
the interim service requirements. They are the same ones a big 
company like Greyhound must follow at first, until its entire 
bus fleet is accessible, so that it graduates out of this 
category.
    But in the case of an operator using used buses, like the 
companies we are talking about, they would be required to 
follow the interim requirements indefinitely. And that means, 
as Ms. Sandberg stated earlier, the company is allowed to 
require a rider with a disability to give up to 48 hours 
advance notice. But then it must provide accessible service on 
the bus run the person requested, and not at another time.
    In narrow circumstances, such a company, if it is small, 
may provide an equivalent service instead, that is, service in 
a different vehicle, as long as it departs as soon as the main 
vehicle, goes as quickly to the same destination, costs the 
same and provides an equal service in every other way. This is 
really only practical with an accessible bus.
    Though, if a company is going, say, from New York to Boston 
at noon on Tuesday, and it has several buses going at the same 
time to the same destination point, it would be okay under the 
equivalency standard for only one of these buses to provide 
wheelchair access. Other than in this narrow circumstance, the 
equivalency provision does not help the curbside operators very 
much. They are still required by the ADA to provide an 
accessible vehicle on any run, as long as an individual with a 
disability provides 48 hours advance notice.
    There are also general non-discrimination issues which 
prohibit excluding the blind travelers discussed earlier, and 
compliance with those rules costs nothing. There are also rest 
stop requirements, training requirements and information 
collection provisions which require the companies confirm any 
accessibility request in writing and documenting any failure to 
provide accessible service to the individual.
    Thank you.
    Mr. Petri. Thank you.
    Mr. Hamilton.
    Mr. Hamilton. Mr. Chairman, members of the Committee, my 
name is Bruce Hamilton. I am the President of Amalgamated 
Transit Union National Local 1700, representing about 4,000 
employees of Greyhound Lines.
    It is a pleasure to be here today to speak on behalf of our 
members, as well as members of other ATU locals representing 
workers who work with Peter Pan Lines and Bonanza Lines and 
other carriers who provide intercity bus service in the U.S.
    Thank you very much for holding this hearing, and thank you 
for inviting the ATU to participate. Having driven a Greyhound 
bus for almost 30 years, I know first-hand the level of skill 
and training that is required, as well as the importance of 
maintaining a fleet that meets or exceeds Federal safety 
standards. Safety is of prominent importance to the ATU. That 
is why we work closely with the industry and with our 
employers, both in the development of driver safety and vehicle 
standards, and the implementation of those and other Federal 
standards in the workplace.
    The Greyhound driver and maintenance training programs, 
which were developed in partnership with the ATU, are examples 
of our joint commitment not only to meeting Federal standards, 
but to exceeding them. These training programs, which are 
widely recognized as the best in the industry, ensure that 
every driver and mechanic has competed extensive hands-on 
training covering all DOT driver and vehicle safety 
requirements, as well as additional safe driving skills, 
emergency evacuation practices and health and safety 
precautions. Drivers and mechanics also attend frequent 
refresher courses on a variety of these issues.
    The ATU is proud of the safe, efficient, friendly and 
affordable intercity bus service that our members provide 
across this Country. We are dedicated to ensuring that the 
companies whose employees we represent are able to continue to 
provide a valuable service to the traveling public.
    Unfortunately, the continuation of this service has been 
threatened recently by the emergence of these numerous fringe 
bus operations that is the subject of this hearing today. 
Reports from passengers, ATU members, other legitimate bus 
providers and State and local and Federal officials, paint a 
picture of curbside operators that too often fail to comply 
with Federal rules governing hours of service, drug and alcohol 
testing, medical examinations, CDLs, proper registration, 
licensing, insurance and maintenance practices. In addition, 
there are numerous reports and complaints that these carriers 
fail to safely dispose of waste products and are not in 
compliance with the accessibility standards set by the ADA.
    By ignoring these laws, these companies are able to 
undercut established carriers such as Greyhound and Peter Pan 
that follow Federal rules and support good jobs for their 
employees. Recent media reports have documented several serious 
accidents involving curbside operators within the last year, 
including two bus fires and a pedestrian fatality. As well as 
questionable incidents, including a recent incident where a 
driver fled the scene when police launched a surprise 
inspection of bus operations in New York's Chinatown. These 
incidents and others are explored further in my written 
testimony.
    What I really want to speak to you about today is what my 
fellow ATU members have themselves witnessed while sharing the 
rh ds with these other carriers. The most common complaints 
heard from ATU members about curbside operators concern their 
erratic and dangerous driving behavior. Drivers frequently 
report being cut off by these carriers, excessive speeding, 
constant lane changes, and driving in the prohibited left lane.
    It is also not uncommon for a Greyhound or Peter Pan driver 
to see these vehicles broken down at the side of the rh d. In 
these instances, good Samaritan ATU members have stopped to 
pick up stranded passengers and have delivered them to their 
destinations without requesting payment.
    Members have reported seeing vehicles owned by these 
companies doing routine maintenance, such as oil change and 
other engine work, in empty parking lots or on the side of the 
rh d. This evidences a failure to have adequate maintenance and 
inspection facilities, as required under the Federal 
regulations.
    In Boston, ATU members working out of the same terminal as 
the drivers for these carriers have reported that many of the 
drivers do not speak English. Since the ability to read and 
speak English is required of any commercial ch ch vehicle 
driver, these experiences call into question the driver's 
qualifications and validity of their CDLs.
    Our members also regularly hear complaints from passengers 
who have previously traveled with curbside carriers. These 
include unsafe driving practices, inability to communicate with 
the driver, unsanitary or inoperable restroom facilities, the 
lack of anyone to help with baggage, and numerous other 
complaints. Similarly, passengers with disabilities have 
reported being turned away by curbside operators and often told 
to go to Greyhound for accessible service.
    These reports of incidents should come as no surprise to 
Federal officials. Recent FMCSA compliance reviews indicate 
that low cost operators score dramatically low, below the 
national average in terms of safety. There is no excuse for 
continuing to allow these unsafe companies on the rh d. We must 
be more aggressive with the enforcement of safety regulations, 
the penalties must be significant enough to deter violations 
and follow-up must ensure continued compliance.
    By allowing a fringe element of the industry to evade basic 
requirements, legitimate operators are placed in an impossible 
competitive position. More importantly, the safety and well-
being of passengers and other highway users is needlessly 
jeopardized. There is simply no reason for this double standard 
to exist. Federal, State and local officials must institute 
measures that will protect the traveling public from this 
growing safety threat on our Nation's highways.
    Thank you very much.
    Mr. Petri. Thank you.
    Mr. Pantuso.
    Mr. Pantuso. Thank you, Mr. Chairman, Ranking Member 
DeFazio, members of the Committee.
    ABA is the primary trade association representing the 
private over-the-rh d bus industry and has 800 bus operator 
members who represent in total about 65 percent of all the 
private buses on the rh d today. ABA's members provide all 
types of transportation services.
    Today's hearing exposes a real threat, not only to the bus 
industry, to the transportation system, but especially to the 
774 million individuals who travel by bus annually. The problem 
of unregulated, unfit, ill-policed ch ch ch ch companies is one 
of growing concern. And we agree with Administrator Sandberg: 
our concerns are for all passenger carriers who do not comply 
with in the boundaries of the law and that safety is a primary 
concern.
    But Mr. Chairman, let me be clear. We are talking about an 
industry with a stellar safety record, and the companies we are 
talking about, the curbside operators, do not represent the 
industry and are in fact a black eye for the industry, 
operating outside of the law.
    Let me define curbside operators and the harm that they can 
and will eventually cause. Let me also be clear that this is 
not a ``David versus Goliath'' issue. In an industry that is 
primarily made up of mom and pop companies, these operators, 
the curbside operators, are some of the largest in the 
industry, and in fact, promote themselves as such.
    The operators I am describing bh st of providing low cost 
service between cities, as you earlier described, Mr. Chairman. 
And their service begins and ends on street corners. Typically 
they have no maintenance program, let alone maintenance 
facilities, and they seemingly operate on a shoestring.
    The carriers also operate in defiance of Federal, State and 
local laws. Chief among their deficiencies is the lack of 
wheelchair accessible buses in their fleets. The Americans With 
Disabilities Act that requires as of this October that large 
scheduled carriers have at least 50 percent of their fleet 
lift-equipped and provide 48 hour service and should have been 
buying ch ches for the last 6 years with lifts have been doing 
so. But these carriers have not been following those rules and 
regulations. Wheelchair lifts are not cheap, as was pointed 
out, at $40,000 per lift and a cost of $40 million to the 
industry annually.
    Curbside operators have no wheelchair lifts, so therefore 
they have no ability to comply with the ADA law. And typically, 
as was noted, they direct their customers who are in need of 
lift-equipped ch ches to Trailways, Greyhound and other 
reputable carriers.
    All interstate bus companies are licensed by the FMCSA, and 
FMCSA is supposed to license only carriers who are fit, willing 
and able to abide by the law and the regulations of the 
Secretary of Transportation. The Secretary may in fact invoke 
authority of any carrier that fails to comply with the 
regulations.
    However, FMCSA allows curbside operators who are in clear 
violation of the ADA law a civil right operating authority, 
arguing it cannot use ADA violations to deny authority to any 
carrier. FMCSA argues that the ADA bus regulations promulgated 
in 1998 by the Secretary of Transportation are not in fact 
regulations of the Secretary of Transportation and cannot be 
used to determine fitness.
    The position is unsound legally, and as a matter of public 
policy, lacks any common sense. FMCSA's view allows a violation 
of the law if the law is enforced by another agency. Even if it 
does abdicate its responsibility for the service requirements 
under the ADA law, it cannot foist responsibility for the ADA 
equipment requirements and the purchase requirements on any 
other agency.
    FMCSA is required to enforce Federal DOT safety 
regulations. As has been noted, many of the curbside operators 
have well documented lists of safety deficiencies. They lack 
proper equipment, trained drivers, safety and security training 
and protocols for environmental waste.
    Even worse, some of these operators do not have operating 
authority. Recently, Dragon Ch ch, for example, which operates 
between Washington and Albany, New York, had no authority to 
operate that route and had no application applying for 
authority.
    Speeding, braking, traffic laws, ignoring other infractions 
of the law, were detailed in one recent Washington Post column. 
Other articles detail failures to aid passengers in emergency 
situations. And even to heed the passengers' warnings when the 
driver was alerted when the bus was on fire.
    In conclusion, Mr. Chairman, members of the Committee, the 
ABA believes that the laws concerning safety and security, as 
well as compliance with ADA, should apply to all carriers. The 
safety of passengers should not be compromised under any 
circumstance, certainly not for cost. Denying authority or 
revoking the authority of an operator who violates or refuses 
to abide by the laws should be a mandatory function of FMCSA, 
and Congress should insist that FMCSA and the Department of 
Transportation do what is required to prevent any carrier from 
making a mockery of our safe transportation system.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Chairman, I think this panel has provided some very 
solid direction for the Committee. I am hopeful the Committee 
will choose to follow up aggressively on a number of the 
concerns that have been raised here, everything from the safety 
concerns to the ADA concerns. I just hark back, we used to have 
a restaurant rating system, this would be sort of a minimal 
thing in Oregon, where there is like a big seal on the door, A, 
B, C, you know, et cetera. The Restaurant Association lobbied 
it out of existence because it hurt their business too much 
when people were getting Cs and Ds.
    But something like, put a big seal there and say, 
basically, caution, you are about to get on a bus that really 
hasn't been inspected. But this is endemic, and we have to take 
some action here. Otherwise we are going to be acting after a 
tragedy.
    So thank you, Mr. Chairman, and thank you all for being 
here.
    Mr. Petri. I want to thank you also for your testimony. We 
may be submitting some questions in writing to you. We have one 
more panel and we are going to be having votes in about 10 
minutes. So we thank you very much.
    The third panel consists of Mr. Pei Lin Liang, Owner of 
Fung Wah Bus Transportation, Inc., and Mr. David Wang, Co-Owner 
and Manager of Eastern Travel, Inc. Gentlemen, we thank you for 
submitting your prepared statements. As you know, we invite you 
to make summary remarks for about five minutes.
    We will begin with Mr. Liang. Please proceed.

      TESTIMONY OF PEI LIN LIANG, PRESIDENT, FUNG WAH BUS 
TRANSPORTATION, INC.; DAVID WANG, CO-OWNER AND MANAGER, EASTERN 
                          TRAVEL, INC.

    Mr. Liang. Thank you very much.
    Mr. Chairman, thank you. I, Pei Lin Liang, am the President 
of Fung Wah Bus Transportation, Inc. Our bus company began five 
years ago. We service only one route: Boston to New York City 
and back. Our fleet consists of 20 buses.
    Our efforts to comply with ADA regulations include, however 
are not limited to, establishment of company policy that 
complies with ADA regulations, training of all employees to 
provide services to the disabled and to budget for the future 
purchases of handicapped accessible buses and other needed 
equipment to provide such service. At this time, we have one 
wheelchair accessible bus that runs daily.
    Bus safety and ADA regulatory compliance is a major concern 
of Fung Wah. Our experience in maintaining ADA compliance has 
been a difficult one. We have identified three issues of 
concern.
    One, inconsistency in the law. As a bus service provider, 
we must comply with many different bodies of law. Some of the 
other bodies of law are not consistent with ADA regulations. 
How can we comply with inconsistent rules?
    If a blind passenger with a service animal comes abh rd a 
Fung Wah bus with only window seat available, we are confused 
as to where to situate the service animal. DOT rules state that 
the aisle must not be obstructed. We cannot separate the blind 
passenger and her service animal. We cannot impose on a fellow 
passenger to move out of his aisle seat. Furthermore, if we 
find a passenger willing to move, again, where do we situate 
the service animal?
    Second, practical issues with ADA compliance. All Fung Wah 
drivers are trained to provide the correct care to our disabled 
passengers. Our drivers feel uncomfortable getting disabled 
passengers of the opposite sex to and from the restroom. On 
busy weekends and the like, a trip to New York City from Boston 
might take up to six hours, where one or two trips to the 
restroom might be needed. There are many occasions that a 
disabled passenger might be dropped off at the bus terminal to 
be picked up by another caregiver at the destination. During 
that trip, the driver must get that passenger to the restroom.
    Three, wheelchair accessible buses are expensive. Fung Wah 
is a small company, and having to budget an extra 10 percent or 
more for the wheelchair accessible buses has not been easy. The 
10 percent increase in price is only for used buses. For new 
buses, the price difference gets even greater.
    Thank you very much.
    Mr. Petri. Thank you. Now we turn to Mr. Wang.
    Mr. Wang. Mr. Chairman and members of the Subcommittee, my 
name is Aimin Wang, co-owner and managing director of Eastern 
Travel and Tours, Inc. Thank you for inviting me to testify 
today on the important topics of Curbside Operator: Bus Safety 
and ADA Regulatory Compliance.
    Eastern Travel and Tours, Inc. is a minority-owned small 
business, incorporated under the laws of the State of New York. 
It has been in business as a ch ch carrier of passengers since 
2002. Currently, we provide daily bus trips between New York 
City and Washington, D.C., and limited service to Rockville, 
Maryland and Richmond, Virginia under authority issued by the 
Federal Motor Carrier Safety Administration, MC-429551.
    Here is an overview of the measures we took to ensure the 
safety of our passengers. One, bus safety, A, controlled 
substance and alcohol use testing. We have a written company 
policy about substance abuse and testing. Each driver has a 
copy of it. We have pre-employment tests, pre-transfer tests, 
random tests, post-accident tests, reasonable suspicion tests, 
return to duty test, follow up test.
    B, qualification of drivers. This is our ``to-do'' list for 
all drivers. Complete application for employment, make 
inquiries to previous employers, get a New York State DMV 
report through insurance agents or driver. Resubmit a DMV 
report if the driver has been employed more than one year. Copy 
the driver's medical certificate. Fill out the annual 
violations list, if the driver has been employed more than one 
year.
    Fill out the I-9 immigration form and review proper 
identification. Rh d test the driver. If the driver is new to 
the company, he must complete the hours of service record to 
document all the work in the previous seven days period. Get 
the driver to sign a release and contact previous employers to 
check on drug and alcohol testing results.
    Provide the driver with a copy of our drug and alcohol 
testing company policy along with a contact name and phone 
number. Send the driver for pre-employment drug test and do not 
use the driver until we get the results of the drug test. Check 
the driver's CDL to be sure that he or she has the proper 
endorsements to drive the bus.
    In addition to the above, every driver must be 19A active 
under the New York State law.
    C, additional safety measures. We have a driver manual and 
a written safety policy. In addition, we have ch ch vehicle 
accident register, documented safety meetings and a ch ch 
vehicle maintenance logs. We also carefully control drivers' 
hours of service, and follow 10/60/70 rules.
    Number two, ADA regulations. We are committed to protecting 
the rights of persons with disabilities. All persons with 
disabilities have priority when bh rding the bus. We ensure 
that the drivers are trained to properly use lift and 
securement devices, properly maintain lift and securement 
devices, and assist and treat individuals with disabilities who 
use the service in a respectful manner.
    In addition, we have a log sheet to record special 
disability service requests. It includes customer name, 
telephone number and the date the customers made the request. 
As a small operator, we do have one ch ch equipped with a 
wheelchair lift, and it is running on a daily basis.
    As small business owners, we are working hard to run our 
business and to comply with the bus safety and ADA regulations. 
If there are problems that need fixing, the Government agency 
should help us deal with these problems. We do need more help 
from the Department of Justice about ADA issues. We do need 
more help from the Department of Homeland Security about 
terrorist issues. And we do need more help from the Federal 
Motor Carrier Safety Administration about safety issues.
    And Mr. Chairman, and members of the Subcommittee, we do 
need your help to protect consumers' rights, to prevent the 
price of the bus tickets from Washington, D.C. to New York City 
from skyrocketing to $45 one way again.
    Once again, thank you for inviting me to appear before you 
today.
    Mr. Petri. Thank you both for your testimony.
    We may be interrupted by some bells, and that will mean 
that I and other members, Mr. DeFazio will have to go and vote. 
But until that time, I would like to ask a few questions.
    Do you have an association of curbside bus operators, or 
are you each unaffiliated in any way?
    Mr. Wang. We are unaffiliated. We tried to, we have an idea 
to get a Chinatown bus association, so we can more control all 
our Chinatown bus companies, that we can talk to each other, 
share safety issues and ADA issues. That is in the planning, 
yes.
    Mr. Petri. How do you market to the public? Is it through 
web sites, or word of mouth or probably a combination of means? 
Do you advertise in the newspapers, or post your schedules on 
the web?
    Mr. Wang. Word of mouth is the most important. And a very 
few on the internet. We have very few times to run in the 
newspaper. It is all friends telling friends, telling family 
members. That is why in the beginning we all would lose money. 
Now it is picking up, so more and more people know us now.
    Mr. Petri. There are issues which in terms of communicating 
with passengers, if you have passengers from a variety of 
different communities, the drivers may not be able to 
communicate to all the passengers, if the driver does not know 
English or if he does not know whatever, the passengers 
probably speak a variety of different languages. They will not 
all know English, probably.
    Mr. Wang. Yes. Most all our drivers speak English, because 
not all of my drivers are Chinese. I have some Spanish drivers. 
The rule is very clear, it says the driver has to speak enough 
English to communicate with the officers and the DOT 
inspectors. But what is called enough? Because I know one of my 
drivers, one inspector inspected him, said he is okay. Then the 
other inspector put him out of service, saying he could not 
speak English.
    So it is very tough for us to control. What is the standard 
that they have to speak English, the standard of spoken 
English? It is very, very tough.
    Mr. Liang. I think that some drivers are stuttering. The 
Chinese stutter, and sometimes the police, especially on the 
highway, so they say, oh, you don't speak English.
    Mr. Petri. We do have rules, and we argue about them, and 
they exist for a good purpose, to help protect the public, and 
to make sure that different people with handicaps or with other 
problems have access to transportation services.
    Do you have any ideas about what we could do that would 
help improve compliance with the rules or opportunity for 
people to understand the rules, so that we can avoid lawsuits 
and putting people out of business and provide good service, 
and low cost service, competition is a good thing. But it 
should be fair competition. If you are competing by not abiding 
by the rules, that is not fair competition.
    Mr. Wang. Yes, everybody knows that the rules about the 
wheelchair, usually it is 48 hours. For example, the Fung Wah, 
we run the bus for the wheelchair. But another company, this is 
a bus that used to go down, out of our company, this was 
leased, run the other company, the wheelchair is a part of the 
schedule, use of the wheelchair.
    Mr. Petri. So you are saying, the 48 hours, for a smaller 
operator, notice of 48 hours in advance to be using a 
wheelchair, people don't understand that and don't give you the 
48 hours notice, it is not fair for them to create that--you 
are not out of compliance?
    Mr. Wang. Yes, but for 48 hours, because we do have a 
wheelchair lift on a daily basis. So if people call me in 48 
hours, I can switch the schedule to fit the person's schedule. 
The answer is, safety is always our top priority. We do not 
want to break down a bus on the rh d. From my interest, I want 
people safe, no breakdown. If I keep breaking down on the rh d, 
nobody is going to take my bus.
    If we are safe, it is really a big issue, like a big 
company that says, why I have so many customers. The people do 
not risk their lives to save $5. Let's say three months ago my 
internet sales price, one way from New York to Washington, was 
$21. Greyhound is $20. But we didn't lose any customers. My 
sales are still going up. Now maybe they increase about $23.
    So if anybody just wants to save $2, put their life at 
risk? That does not make sense.
    Mr. Petri. Well, we thank you very much for being here 
today. How many buses do you operate, each of you?
    Mr. Wang. My company only owns six buses. All the rest I am 
leasing from outside.
    Mr. Petri. How many do you lease?
    Mr. Wang. About three on the weekends. Friday to Sunday 
only.
    Mr. Petri. All right, so six to ten buses?
    Mr. Wang. Nine total, yes.
    Mr. Petri. And you, sir?
    Mr. Liang. Twenty.
    Mr. Petri. Twenty? All right.
    And are most of your interactions with State regulators, or 
are you dealing with the Federal most of the time?
    Mr. Wang. Both. New York DOT, like in New York State, the 
New York DOT inspects us like every six months. We must go to 
an inspection facility to inspect your bus every six months. 
And also, the Federal Motor Carrier Safety, by random 
inspection, last year I said about eight times to ten times, 
mostly in Chinatown, New York and in Chinatown, Washington, 
D.C.
    The person from the Federal Motor Carrier Safety 
Administration, they also come to our office every year to see 
all our documents, make sure we are complying with every 
regulation. They also, whenever they come, they ask, do you 
have a wheelchair lift bus. Every time, they do ask these 
questions, yes.
    Mr. Petri. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Wang, your company, your driver value under the Federal 
system is 74, which means that you basically are very close to 
falling into the lowest quartile, if you understand that. You 
are skating on the edge here. And a lot of it goes to hours of 
service. You have had people who have been violating the rules 
by driving too many hours, which is clearly a potential safety 
problem, as I mentioned earlier to the Administrator. Most 
often, or oftentimes driver fatigue is identified.
    What have you done to rectify that problem? Can you assure 
us that this is not going to continue?
    Mr. Wang. Yes, this driver has issues, because one of my 
drivers gets out of service for, he didn't write in the log 
book and this driver has been terminated right away. Because we 
tell him so many times, hey, you have to keep, when you are on 
duty, you have to write in the log book. He says, oh, okay, and 
never, and then the last time they found it, he was terminated 
right away.
    Also, the data is like statistics, you can see, we only 
have three drivers that got inspected. Once you have one out, 
it affects your score a lot. If I had 1,000 drivers, and have a 
couple out, then the score would still be good.
    Mr. DeFazio. Right. But it only takes one driver falling 
asleep to kill a lot of people.
    Mr. Wang. I know. We control, we are very seriously 
controlling the hours of service for our drivers. Because we 
know if something goes wrong, and if I break the law, then we 
have a lot of troubles.
    Mr. DeFazio. Okay. And then Mr. Liang, you have a failing 
score. Your value is 86, meaning 86 percent perform better. You 
have an extraordinary number of speeding violations. And then 
other safety violations, following too closely, speeding, 
improper lane change. This is very disturbing. I think that 
people who are riding on your buses would be very disturbed to 
know about this.
    You also have some duty time violations. What have you done 
to rectify these problems? Can you assure us these have been 
taken care of?
    Mr. Liang. Sir, I have experienced, I have some drivers 
talk about their English is not so good. But they know how to 
talk to the police. But I just spoke to some of the drivers 
about their stuttering, their English is the same. So sometimes 
the police, when the police stop the buses, stop the driver, 
they want to talk about some of the questions, some of the 
reasons. But they are stuttering.
    So the police get the summons for the driver. That is the 
first thing.
    The second thing, in Connecticut, the signs are different. 
Example, Connecticut, the 95 in Connecticut, exit 3, this is 
the weigh station. But the sign says no bus in the weigh 
station, no bus. But the highway, 84 highway, the exit 73 and 
74, have that bus, truck, trailer, all commercial.
    So when the bus passed the 95 exit, the second and third, 
some of the police said, oh, you passed the weigh station. So 
they got a summons, the first thing.
    The second thing, I have the express, a mini-ch ch. Nobody 
knows that. The mini-ch ch is 28 seats. When I drive the mini-
ch ch and 25 people are in the bus. But I go to the weigh 
station on 84, in the exits 73 and 74, the exit that is a weigh 
station. But I got a summons that it is overweight. Why? Nobody 
knows. The police, why, you are overweight, your bus is 
overweight. That was recent, I got a ch ch summons.
    Last year, around October, I went to the office in 
Massachusetts, Boston. I showed them the ticket, ch ch summons. 
Last year in October.
    Mr. DeFazio. I think just the number and the pattern, there 
may be some capability of, you certainly have recourse to the 
court systems in those States, and I am not certain whether 
these are actually resolved or not, or they were ticketing and 
we don't know how they were resolved. Obviously your recourse 
is to the judges in those States. But that is a very large 
number of speeding violations, particularly in Massachusetts.
    My concerns are not assuaged here. But I really don't have 
further questions at this point, Mr. Chairman.
    Mr. Petri. We thank you both for coming and for your 
testimony.
    We are concerned with making sure that there is fair 
enforcement, but that there is also compliance. We are 
recognizing that, especially when you are dealing with people 
who are not as fluent in English and with some of the 
procedures and rules, that it is a management problem for you, 
it is an enforcement problem for us. I hope that you possibly, 
if you form some curbside operators association, it might help 
with communications between the enforcement agencies and your 
organizations, to help reduce misunderstandings or unfair 
enforcement or unfair competition by your organizations.
    We thank you again for preparing the statements that you 
have submitted and for your response to the questions today.
    Thank you. And this hearing is adjourned.]
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8267.001
    
    [GRAPHIC] [TIFF OMITTED] T8267.002
    
    [GRAPHIC] [TIFF OMITTED] T8267.003
    
    [GRAPHIC] [TIFF OMITTED] T8267.004
    
    [GRAPHIC] [TIFF OMITTED] T8267.005
    
    [GRAPHIC] [TIFF OMITTED] T8267.006
    
    [GRAPHIC] [TIFF OMITTED] T8267.007
    
    [GRAPHIC] [TIFF OMITTED] T8267.008
    
    [GRAPHIC] [TIFF OMITTED] T8267.009
    
    [GRAPHIC] [TIFF OMITTED] T8267.010
    
    [GRAPHIC] [TIFF OMITTED] T8267.011
    
    [GRAPHIC] [TIFF OMITTED] T8267.012
    
    [GRAPHIC] [TIFF OMITTED] T8267.013
    
    [GRAPHIC] [TIFF OMITTED] T8267.014
    
    [GRAPHIC] [TIFF OMITTED] T8267.015
    
    [GRAPHIC] [TIFF OMITTED] T8267.016
    
    [GRAPHIC] [TIFF OMITTED] T8267.017
    
    [GRAPHIC] [TIFF OMITTED] T8267.018
    
    [GRAPHIC] [TIFF OMITTED] T8267.019
    
    [GRAPHIC] [TIFF OMITTED] T8267.020
    
    [GRAPHIC] [TIFF OMITTED] T8267.021
    
    [GRAPHIC] [TIFF OMITTED] T8267.022
    
    [GRAPHIC] [TIFF OMITTED] T8267.023
    
    [GRAPHIC] [TIFF OMITTED] T8267.024
    
    [GRAPHIC] [TIFF OMITTED] T8267.025
    
    [GRAPHIC] [TIFF OMITTED] T8267.026
    
    [GRAPHIC] [TIFF OMITTED] T8267.027
    
    [GRAPHIC] [TIFF OMITTED] T8267.028
    
    [GRAPHIC] [TIFF OMITTED] T8267.029
    
    [GRAPHIC] [TIFF OMITTED] T8267.030
    
    [GRAPHIC] [TIFF OMITTED] T8267.031
    
    [GRAPHIC] [TIFF OMITTED] T8267.032
    
    [GRAPHIC] [TIFF OMITTED] T8267.033
    
    [GRAPHIC] [TIFF OMITTED] T8267.034
    
    [GRAPHIC] [TIFF OMITTED] T8267.035
    
    [GRAPHIC] [TIFF OMITTED] T8267.036
    
    [GRAPHIC] [TIFF OMITTED] T8267.037
    
    [GRAPHIC] [TIFF OMITTED] T8267.038
    
    [GRAPHIC] [TIFF OMITTED] T8267.039
    
    [GRAPHIC] [TIFF OMITTED] T8267.040
    
    [GRAPHIC] [TIFF OMITTED] T8267.041
    
    [GRAPHIC] [TIFF OMITTED] T8267.042
    
    [GRAPHIC] [TIFF OMITTED] T8267.043
    
    [GRAPHIC] [TIFF OMITTED] T8267.044
    
    [GRAPHIC] [TIFF OMITTED] T8267.045
    
    [GRAPHIC] [TIFF OMITTED] T8267.046
    
    [GRAPHIC] [TIFF OMITTED] T8267.047
    
    [GRAPHIC] [TIFF OMITTED] T8267.048
    
    [GRAPHIC] [TIFF OMITTED] T8267.049
    
    [GRAPHIC] [TIFF OMITTED] T8267.050
    
    [GRAPHIC] [TIFF OMITTED] T8267.051
    
    [GRAPHIC] [TIFF OMITTED] T8267.052
    
    [GRAPHIC] [TIFF OMITTED] T8267.053
    
    [GRAPHIC] [TIFF OMITTED] T8267.054
    
    [GRAPHIC] [TIFF OMITTED] T8267.055
    
    [GRAPHIC] [TIFF OMITTED] T8267.056
    
    [GRAPHIC] [TIFF OMITTED] T8267.057
    
    [GRAPHIC] [TIFF OMITTED] T8267.058
    
    [GRAPHIC] [TIFF OMITTED] T8267.059
    
    [GRAPHIC] [TIFF OMITTED] T8267.060
    
    [GRAPHIC] [TIFF OMITTED] T8267.061
    
    [GRAPHIC] [TIFF OMITTED] T8267.062
    
    [GRAPHIC] [TIFF OMITTED] T8267.063
    
    [GRAPHIC] [TIFF OMITTED] T8267.064
    
    [GRAPHIC] [TIFF OMITTED] T8267.065
    
    [GRAPHIC] [TIFF OMITTED] T8267.066
    
    [GRAPHIC] [TIFF OMITTED] T8267.067
    
    [GRAPHIC] [TIFF OMITTED] T8267.068
    
    [GRAPHIC] [TIFF OMITTED] T8267.069
    
    [GRAPHIC] [TIFF OMITTED] T8267.070
    
    [GRAPHIC] [TIFF OMITTED] T8267.071
    
    [GRAPHIC] [TIFF OMITTED] T8267.072
    
    [GRAPHIC] [TIFF OMITTED] T8267.073
    
    [GRAPHIC] [TIFF OMITTED] T8267.074
    
    [GRAPHIC] [TIFF OMITTED] T8267.075
    
    [GRAPHIC] [TIFF OMITTED] T8267.076
    
    [GRAPHIC] [TIFF OMITTED] T8267.077
    
    [GRAPHIC] [TIFF OMITTED] T8267.078
    
    [GRAPHIC] [TIFF OMITTED] T8267.079
    
    [GRAPHIC] [TIFF OMITTED] T8267.080
    
    [GRAPHIC] [TIFF OMITTED] T8267.081
    
    [GRAPHIC] [TIFF OMITTED] T8267.082
    
    [GRAPHIC] [TIFF OMITTED] T8267.083
    
    [GRAPHIC] [TIFF OMITTED] T8267.084
    
    [GRAPHIC] [TIFF OMITTED] T8267.085
    
    [GRAPHIC] [TIFF OMITTED] T8267.086
    
    [GRAPHIC] [TIFF OMITTED] T8267.087
    
    [GRAPHIC] [TIFF OMITTED] T8267.088
    
    [GRAPHIC] [TIFF OMITTED] T8267.089
    
    [GRAPHIC] [TIFF OMITTED] T8267.090
    
    [GRAPHIC] [TIFF OMITTED] T8267.091
    
    [GRAPHIC] [TIFF OMITTED] T8267.092
    
    [GRAPHIC] [TIFF OMITTED] T8267.093
    
    [GRAPHIC] [TIFF OMITTED] T8267.094
    
    [GRAPHIC] [TIFF OMITTED] T8267.095
    
    [GRAPHIC] [TIFF OMITTED] T8267.096
    
    [GRAPHIC] [TIFF OMITTED] T8267.097
    
    [GRAPHIC] [TIFF OMITTED] T8267.098
    
    [GRAPHIC] [TIFF OMITTED] T8267.099
    
    [GRAPHIC] [TIFF OMITTED] T8267.100
    
    [GRAPHIC] [TIFF OMITTED] T8267.101
    
    [GRAPHIC] [TIFF OMITTED] T8267.102
    
    [GRAPHIC] [TIFF OMITTED] T8267.103
    
    [GRAPHIC] [TIFF OMITTED] T8267.104
    
    [GRAPHIC] [TIFF OMITTED] T8267.105
    
    [GRAPHIC] [TIFF OMITTED] T8267.106
    
    [GRAPHIC] [TIFF OMITTED] T8267.107
    
    [GRAPHIC] [TIFF OMITTED] T8267.108
    
    [GRAPHIC] [TIFF OMITTED] T8267.109
    
    [GRAPHIC] [TIFF OMITTED] T8267.110
    
    [GRAPHIC] [TIFF OMITTED] T8267.111
    
    [GRAPHIC] [TIFF OMITTED] T8267.112
    
    [GRAPHIC] [TIFF OMITTED] T8267.113
    
    [GRAPHIC] [TIFF OMITTED] T8267.114
    
    [GRAPHIC] [TIFF OMITTED] T8267.115
    
    [GRAPHIC] [TIFF OMITTED] T8267.116
    
    [GRAPHIC] [TIFF OMITTED] T8267.117
    
    [GRAPHIC] [TIFF OMITTED] T8267.118
    
    [GRAPHIC] [TIFF OMITTED] T8267.119
    
    [GRAPHIC] [TIFF OMITTED] T8267.120
    
    [GRAPHIC] [TIFF OMITTED] T8267.121
    
    [GRAPHIC] [TIFF OMITTED] T8267.122
    
    [GRAPHIC] [TIFF OMITTED] T8267.123
    
    [GRAPHIC] [TIFF OMITTED] T8267.124
    
    [GRAPHIC] [TIFF OMITTED] T8267.125
    
    [GRAPHIC] [TIFF OMITTED] T8267.126
    
    [GRAPHIC] [TIFF OMITTED] T8267.127
    
    [GRAPHIC] [TIFF OMITTED] T8267.128
    
    [GRAPHIC] [TIFF OMITTED] T8267.129
    
    [GRAPHIC] [TIFF OMITTED] T8267.130
    
    [GRAPHIC] [TIFF OMITTED] T8267.131
    
    [GRAPHIC] [TIFF OMITTED] T8267.132
    
    [GRAPHIC] [TIFF OMITTED] T8267.133
    
    [GRAPHIC] [TIFF OMITTED] T8267.134
    
    [GRAPHIC] [TIFF OMITTED] T8267.135
    
    [GRAPHIC] [TIFF OMITTED] T8267.136
    
    [GRAPHIC] [TIFF OMITTED] T8267.137
    
    [GRAPHIC] [TIFF OMITTED] T8267.138
    
    [GRAPHIC] [TIFF OMITTED] T8267.139
    

</pre></body></html>
